<html>
<title> - COMBATING TERRORISM: CHEMICAL PLANT SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




              COMBATING TERRORISM: CHEMICAL PLANT SECURITY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2004

                               __________

                           Serial No. 108-156

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-257                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
------ ------                        JOHN F. TIERNEY, Massachusetts
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 23, 2004................................     1
Statement of:
    Liscouski, Robert P., Assistant Secretary of Homeland 
      Security for Infrastructure Protection, Department of 
      Homeland Security; Robert Full, chief, Allegheny County 
      Department of Emergency Services; and Thomas W. Headley, 
      vice chairman, Forward Township Board of Supervisors.......     8
    Stephenson, John, Director of National Resources and 
      Environment for the U.S. General Accounting Office; Pamela 
      Witmer, president of the Pennsylvania Chemical Industry 
      Council; Marty Durbin, team leader for security and 
      opeerations and senior director of Federal relations for 
      the American Chemistry Council; and Jennifer C. Gibson, 
      vice president of government and public affairs, National 
      Association of Chemical Distributors.......................    50
Letters, statements, etc., submitted for the record by:
    Durbin, Marty, team leader for security and opeerations and 
      senior director of Federal relations for the American 
      Chemistry Council, prepared statement of...................    84
    Full, Robert, chief, Allegheny County Department of Emergency 
      Services, prepared statement of............................    18
    Gibson, Jennifer C., vice president of government and public 
      affairs, National Association of Chemical Distributors, 
      prepared statement of......................................   105
    Headley, Thomas W., vice chairman, Forward Township Board of 
      Supervisors, prepared statement of.........................    22
    Liscouski, Robert P., Assistant Secretary of Homeland 
      Security for Infrastructure Protection, Department of 
      Homeland Security, prepared statement of...................    11
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Stephenson, John, Director of National Resources and 
      Environment for the U.S. General Accounting Office, 
      prepared statement of......................................    53
    Witmer, Pamela, president of the Pennsylvania Chemical 
      Industry Council, prepared statement of....................    76

 
              COMBATING TERRORISM: CHEMICAL PLANT SECURITY

                              ----------                              


                       MONDAY, FEBRUARY 23, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., at 
Moon Township Municipal Building, Auditorium, 1000 Beaver Grade 
Road, Moon Township, PA, Hon. Christopher Shays (chairman of 
the subcommittee) presiding.
    Present: Representatives Murphy, Shays and Turner.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
and Robert A. Briggs, clerk/policy analyst.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Combating Terrorism: Chemical Plant 
Security,'' is called to order.
    Let me first thank Congressman Tim Murphy for inviting the 
subcommittee here today. He is a thoughtful, active participant 
in our oversight, and we are happy to have the opportunity to 
examine the important issue of chemical plant security from 
this perspective. I will be turning over the chairmanship once 
we've sworn in our first panel, and he'll conduct the rest of 
the hearing.
    According to a February bulletin from the Department of 
Homeland Security [DHS], National Infrastructure Protection 
Center, industrial chemical plants remain ``viable targets'' 
for attacks by al Queda terrorists. So we meet this morning to 
ask if the public and private sectors are pursuing an equally 
viable strategy to repel or respond to those attacks.
    Many in this area may not think so, and for good reason. 
Through last year, a series of media reports pointed to 
chronically lax security and obviously avoidable 
vulnerabilities at chemical facilities here and across the 
Nation. A porous perimeter of fallen fences and poorly aimed 
security cameras that failed to stop intruders armed only with 
pens and cameras is not likely to deter trained terrorists 
seeking access to deadly chemicals.
    What is at risk? More than 15,000 U.S. facilities use large 
amounts of extremely hazardous substances; 3,000 of those sites 
project worst-case hazardous zones in which released chemicals 
could reach more than 10,000 people nearby or far downwind. 
Vulnerability zones around 125 chemical plants could each 
encompass more than 1 million people.
    Securing this widely dispersed network of chemical 
production, storage and distribution facilities poses difficult 
challenges and demands tough choices. Given the undeniable 
attractiveness of toxic and flammable compounds terrorists 
could use as prepositioned weapons of mass destruction, the 
need for increased physical security is obvious. But gates, 
guns and guards are not the only answers. Chemical 
infrastructure could remain economically critical, but less 
vulnerable, if inherently safer substances and processes were 
adopted to reduce their toxic utility to terrorists. Increased 
security and reduced chemical risk need not be mutually 
exclusive, but so far sustained progress on either seems much 
too elusive.
    Another challenge posed by increased chemical facility 
security pits the need for public information and awareness 
against the effort to keep facility plans and strategies out of 
the hands of terrorists. Documents on emergency response plans 
and chemical plant preparedness have been removed from the 
Internet and other public sources. The question remains whether 
that loss of transparency enhances security more than it 
shields poor planning from needed public security.
    As in other areas of terrorism preparedness, the chemical 
industry and those who regulate it are hard pressed to answer 
the question, ``Prepared for what?'' Without threat-based 
standards against which to measure security spending, money and 
time are being wasted lurching from crisis to crisis, as each 
code orange alert and sensational media incursion highlights 
new vulnerabilities.
    The Department of Homeland Security is conducting an 
inventory of America's critical infrastructure in formulating 
preparedness standards to secure key industrial targets from 
terrorists. The Assistant Secretary of DHS for Infrastructure 
Protection, Mr. Robert Liscouski, will testify on the status of 
those efforts. We obviously appreciate him being here today.
    State and local officials, industrial association 
representatives and an expert from the U.S. General Accounting 
Office will also testify. We appreciate the time, dedication 
and expertise of all our witnesses, and we look forward to 
their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.001
    
    [GRAPHIC] [TIFF OMITTED] T4257.002
    
    Mr. Shays. At this time the Chair would recognize Michael 
Turner, the vice chairman of the committee.
    Mr. Turner. Thank you, Mr. Chairman, for being at this 
field hearing. You have been instrumental in leading this 
community's charge to improve our homeland security and to 
assist our first responders in being prepared for threats that 
our country now faces.
    I would also like to thank Representative Tim Murphy for 
hosting us here today and bringing this important issue of 
chemical plant security before this subcommittee. 
Representative Murphy is a leading member of the Government 
Reform Committee and effective legislator and colleague, served 
as vice president of our freshman class, and has been a strong 
advocate in the areas of homeland security, education and 
health care.
    The issue of security of chemicals facilities is very 
important to our Nation. I'm encouraged to see that the private 
sector has taken a lead in preparing security assessments of 
not only their facilities, but also for the process of moving 
chemicals from location to location.
    However, the Federal Government should be a partner in that 
process and work with companies to develop quality, 
comprehensive risk management plans. I mentioned there are 
witnesses from the private sector today on how the Federal 
Government can be an effective partner in addressing these 
security concerns.
    Since September 11 our knowledge of the threat we face of 
these facilities has changed, and so must our response. Under 
our chairman's direction, this subcommittee has reviewed issues 
from first-responder resources, our police and fire, nuclear 
power plant safety, our Federal nuclear weapons storage 
programs and the issue of the safety of our disposal of our 
Nation's nuclear weapons stockpile.
    This issue today is important, of course, to our national 
security, but it is also important to our communities and our 
families who are in close proximity to these plants and could 
be affected by our preparedness. That is why it is so important 
that Congressman Murphy has requested that this field hearing 
be held here today rather than Washington, an area where the 
community and the families are affected most by this issue. 
Thank you.
    Mr. Shays. Thank you, gentleman.
    I recognize Mr. Murphy.
    Mr. Murphy. I thank you, Mr. Chairman, and I thank you for 
convening this hearing here in Moon Township, in Pittsburgh 
where we have many members of the chemical industry with 
plants, manufacturing and storage facilities.
    We know that securing America's chemical facilities has 
long been a priority for the chemical industry and the 
thousands of people living in communities near large storage of 
potential hazardous materials. I'd like to thank not only 
Chairman Shays for coming here to this special field hearing, 
but also all the staff who has worked on this issue.
    As you probably know, a local newspaper reporter, Carl 
Prine, and the TV media in this town have done a series of 
investigative reports on the very serious concerns about the 
levels of security we have at chemical facilities since the 
terrorist attacks on September 11, 2001; even CBS picked up the 
story, and 60 Minutes aired a show highlighting the impact of 
this issue across the United States.
    In the last 2 weeks, the National Security Subcommittee 
staff has worked hard to make this hearing possible. I want to 
thank the witnesses who are going to testify before this 
committee today. This is a complicated issue of tremendous 
concern to countless citizens across the country. Ensuring the 
security of the Nation's chemicals demands the attention of 
several different parties with often-times competing 
industries. There are no easy answers, but I appreciate the 
willingness of these individuals to participate in an ongoing 
conversation.
    Now, I have to admit, I am somewhat disappointed the 
companies themselves declined our invitations to testify this 
morning. While I'm looking forward to the testimony to be given 
by representatives of the chemical industry and expect it to be 
very informative, the firsthand testimony of the steps various 
companies in the Pittsburgh community have taken to improve 
security since September 11th would have been invaluable.
    I do appreciate the companies' concerns for revealing 
security procedures in a public forum; however, this committee 
will still pursue a careful and thorough review of their 
policies and procedures in the interest of public safety.
    I believe chemical facilities are, in fact, concerned with 
the security of their sites and the safety of the communities 
in which they reside. It is, and always has been in the best 
interest of the companies to be conscious of the possible 
threats the chemicals they produce and store pose to both their 
employees and the families living nearby.
    In recent days, the crux of this issue has not been only 
one of facilities housing large quantities of dangerous 
materials should be required to conduct vulnerability 
assessments and then take action to reduce those 
vulnerabilities. The issue before us today is simply asking who 
should be responsible for regulating those assessments and 
improvements.
    Federal, State and local governments have always played an 
integral role in ensuring that a certain level of security is 
maintained at chemical facilities, and had the companies 
testified today, we probably would have heard about all the 
different regulations they already are required to adhere to 
and the various government agencies that impose them.
    Many of the facilities currently meet standards set by the 
Environmental Protection Agency, the Department of 
Transportation, the Coast Guard, State environmental agencies, 
State emergency management agencies and local municipalities.
    Our immediate response should not be to automatically slap 
industry with additional security measures without first 
thoroughly investigating the issue; however, there are many 
hard questions that must be answered. Could more be done? 
Should more be done? And who should oversee it and at what 
cost?
    Each of the witnesses that we hear today represent the 
different seats at the security table. I'm looking forward to 
hearing from witnesses at the Federal, State, local industry 
levels. Not only will we be hearing testimony from Federal 
industry representatives on the appropriate balance that should 
be struck in determining oversight and assessment authority, 
but we will also hear from a local township supervisor 
testifying to his firsthand experience working to increase 
security at a local company. We will also hear from the chief 
of the Allegheny County Department of Emergency Services on the 
relationship that the department has with local businesses with 
large chemical stores and emergency response plans in place.
    Finally, let me say this: Any decision made by Congress 
must be based on sound science and not initial knee-jerk 
reactions. The safety of the American people must be our top 
priority, and I firmly believe the best way to ensure their 
safety is to make the most informed and educated decisions 
possible. That is why this and future hearings on the issue are 
so important.
    I thank you, Mr. Chairman.
    Mr. Shays. I thank you, gentleman, and, again, appreciate 
this invitation to have this hearing here rather than in 
Washington.
    To take care of some housekeeping first before calling on 
our witnesses, I ask unanimous consent of all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. And without objection, so ordered.
    I ask for the unanimous consent that all witnesses be 
permitted to submit their written statements in the record. 
Without objection, so ordered.
    At this time I'll recognize our three panelists, our three 
participants in our first panel, the Honorable Robert P. 
Liscouski, Assistant Secretary of Homeland Security for 
Infrastructure Protection, Department of Homeland Security; 
Chief Robert Full, chief, Allegheny County Department of 
Emergency Services; and Mr. Thomas W. Headley, vice chairman, 
Forward Township Board of Supervisors.
    I think you all know that it's our custom on this committee 
to swear in our witnesses, and at this time we would just ask 
you if you would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses responded in 
the affirmative.
    I've chaired this subcommittee and the previous 
subcommittee now for over 8 years, and we've sworn in every 
witness except one, and you probably could guess that it was I 
who essentially chickened out. But other than that, everyone 
has been sworn in, so thank you very much.
    We're going to start with you, Mr. Liscouski, and then 
Chief Full and then Mr. Headley. We'll go in that order.
    At this time I'm turning over the Chair to Mr. Murphy, so 
you're in charge.
    Mr. Murphy [presiding]. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Murphy. Actually, before I do that, I should make sure 
I understand how much time each Member has.
    Mr. Shays. We're going to give you 5 minutes. We're going 
to roll it over for another 5 minutes. So you have 10 minutes, 
but feel free to be somewhere in that range of 5 to 10, and 
that's how we'll proceed, and then I think what we can do is 
10-minute questions for each Member that we ask.
    Mr. Murphy. Thank you. And, Mr. Liscouski, you can proceed.

   STATEMENTS OF ROBERT P. LISCOUSKI, ASSISTANT SECRETARY OF 
HOMELAND SECURITY FOR INFRASTRUCTURE PROTECTION, DEPARTMENT OF 
    HOMELAND SECURITY; ROBERT FULL, CHIEF, ALLEGHENY COUNTY 
 DEPARTMENT OF EMERGENCY SERVICES; AND THOMAS W. HEADLEY, VICE 
        CHAIRMAN, FORWARD TOWNSHIP BOARD OF SUPERVISORS

    Mr. Liscouski. Thank you, sir. Thank you for the 
opportunity to appear, Mr. Chairman, and members of the 
committee. I am pleased to be here this morning before your 
subcommittee to discuss the Department's efforts to protect and 
secure our Nation's critical infrastructure.
    The Department's Information Analysis and Infrastructure 
Protection Directorate carries out comprehensive assessments of 
the vulnerability of the key resources and critical 
infrastructure of the United States, including the performance 
of risk assessments to determine the risks posed by particular 
types of terrorist attacks within the United States.
    Our overall protection methodology leverages an integrated 
physical/cyber protection approach to reduce vulnerabilities 
and to optimize our response when an attack does occur. Because 
of the disproportionately high physical threat facing U.S. 
chemical facilities, however, my remarks for today's hearing 
are directed at our physical security efforts toward 
safeguarding U.S. chemical facilities.
    The IAIP Directorate has a dedicated organization committed 
to protecting physical assets that includes the Infrastructure 
Protection Office for which I am responsible. The organization 
responsible for protection is the Protective Security Division. 
Today I am here to give you a progress report on where we are 
now and what we have in store for the coming months to 
implement the President's National Strategy for Homeland 
Security as it relates to chemical security.
    Since last year the Office for Infrastructure Protection 
has implemented a consolidated and coordinated team of physical 
security professionals. These experts were charged with 
responsibility for the following: Identifying critical 
infrastructure and key assets; assessing their vulnerabilities; 
assessing the risk to and the consequences of an attack against 
those infrastructures and assets; and working with State, 
local, territorial and private sectors to implement appropriate 
security measures.
    More specifically, the Office of Infrastructure Protection 
is working to improve the safety and security of the Nation's 
chemical plants and facilities as part of the infrastructure 
protection directives in the Homeland Security Act and the 
National Strategy for Homeland Security. Despite the many 
organizational and cultural challenges associated with 
integrating these elements into one entity, our initial efforts 
have yielded effective, tangible and measurable results.
    Every day at DHS we ask ourselves how are we safer today, 
and how do we measure our progress? Today I have some answers 
to those questions. Since its inception in 2003, less than a 
year ago, DHS, and specifically my office, has placed chemical 
site security on the top priority list for physical 
infrastructure protection.
    We have managed Operation Liberty Shield, a domestic 
protection strategy that includes the deployment of members of 
State and local police officers, the National Guard to 
approximately 150 sites across the United States, over half of 
which are chemical sites.
    We have conducted a national risk analysis of the chemical 
sector to identify the most hazardous and highest-risk sites. 
We have deployed DHS protective security counterterrorism 
specialists to top priority chemical sites to identify 
vulnerabilities to attacks and develop prevention strategies 
with site management and local officials, and we have completed 
vulnerability assessments, developed specific buffer zone 
security plans and provided training and assistance to 
implement those plans.
    This approach includes full engagement with the protective 
security community at the State and the local levels to include 
the private sector, and this has already resulted in the 
increased safety and security of millions of Americans living 
near the highest-risk sites.
    We have developed a report on chemical facility common 
vulnerabilities. We have developed templates for protection 
plans for areas adjacent to those chemical facilities and a 
report on potential indicators of terrorist activities related 
to chemical sites which have been shared with State and local 
authorities. These reports have been published and distributed 
throughout the country to law enforcement authorities and to 
each of the States' homeland security advisor.
    In addition, we are developing and using a graded approach 
to the approximately 66,000 sites. This is based on EPA records 
in the United States and identifying the 4,012 sites that 
should have vulnerability assessments performed. We are 
reviewing the amount of toxic materials stored at those sites, 
developing plume modeling for 146 chemical plants using the 
National Atmospheric Release Advisory Center [NARAC], for more 
detailed effects prediction.
    We're reviewing the population density in the vicinity of 
large amounts of toxic chemicals and evaluating possible 
impacts of intentional attack as opposed to accidental release 
models used in safety programs.
    High-risk sites will be visited on a regular basis to 
assist in the implementation of security recommendations, and 
we will also visit additional sites to provide training, 
support and recommendations, and we will do further followup 
visits on a regular basis. These visits and the protection 
plans will reduce risk to millions of Americans.
    The Office of Infrastructure Protection's close association 
with the industry is exemplified by our close interaction with 
more than 20 Information Sharing and Analysis Centers [ISACs]. 
One example of this interaction is the Vulnerability Assessment 
Methodology for the Petroleum and Petrochemical Industries, 
which was published by the American Petroleum Institute and 
collaboratively crafted by my office and the API, published in 
May 2003.
    Protecting our critical infrastructure is a Departmentwide 
responsibility. In 2002, the Maritime Transportation Security 
Act was passed. Regulations now in place require some 5,000 
sites to provide security plans to the Coast Guard, including 
289 chemical facilities which were included in that list. 
Security plans are being prepared and submitted as we speak.
    The Environmental Protection Agency [EPA], is another 
agency we work closely with. Historically, the EPA has been 
charged with identifying chemical and other substances that 
could affect the quality of the air we breathe and the water 
that we drink. Part of their mission includes regulations 
requiring chemical facilities that meet or exceed certain 
guidelines to develop and update these documents that are 
called risk management plans. These plans center on accidental 
releases of chemicals harmful to humans into the air or the 
water. The EPA published that there are about 15,000 chemical 
plants in the United States.
    Before detailing our future programs and initiatives, 
however, I would like to address the EPA numbers as they are 
being used by the media and others regarding security at 
chemical plants. While these facts may adequately address 
environmental, emergency preparedness, and first responders' 
concerns, they do not appropriately reflect the possible 
results of terrorist attacks. Our analysis of terrorist 
scenarios show that of the 15,000 or so chemical sites 
identified by the EPA, approximately 4,000 if attacked would 
affect populations of 1,000 or more.
    Over the next year the DHS will engage with approximately 
4,000 sites, chemical sites, throughout the United States to 
continue to enhance security of our critical infrastructure 
sites in the chemical sector. These additional visits and 
protection plans will reduce the risk to tens of millions of 
Americans in 50 States, the District of Columbia and the U.S. 
territories.
    The Department is working to ensure that the security of 
our Nation's critical facilities and infrastructure is a focus 
of our efforts.
    I appreciate the opportunity to testify before you today, 
and I would be pleased to answer any questions that you have at 
the appropriate time. Thank you.
    Mr. Murphy. Thank you.
    [The prepared statement of Mr. Liscouski follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.003
    
    [GRAPHIC] [TIFF OMITTED] T4257.004
    
    [GRAPHIC] [TIFF OMITTED] T4257.005
    
    [GRAPHIC] [TIFF OMITTED] T4257.006
    
    Mr. Murphy. We will now turn to Chief Robert Full, who is 
the chief of the Allegheny County Department of Emergency 
Services.
    Chief, please proceed.
    Chief Full. Good morning, Mr. Murphy, Mr. Chairman, thank 
you very much, and members of the committee, I thank you for 
this opportunity to provide testimony before you today. Also, 
on behalf of Chief Executive Dan Onorato, our Allegheny County 
Chief Executive, I would also like to thank you for being here 
in our fine county as well, and rest assured your safety is 
paramount to us, and we wish your stay here to be very well.
    I come before you not only as the Chief of the Department 
of Emergency Services, but also the Allegheny County emergency 
management coordinator, the chairman of the Allegheny County 
Local Emergency Planning Committee and also the Pennsylvania 
Region 13 Counterterrorism Task Force.
    Mr. Murphy, I'd like to compliment you on your efforts and 
your interest in our things that we do here locally, as I know 
that you've attended our meetings before and provided us a 
great deal of support in our endeavors with not only terrorism, 
but also safety in the community.
    Allegheny County, PA, has a population of 1.28 million 
persons in a 730-square-mile area, with 130 municipalities 
including the city of Pittsburgh. The county is a large center 
for research and development, retail, manufacturing, 
specialized medical care centers, major educational 
institutions and numerous other industries and small 
businesses.
    The county is a major transportation hub for North and 
South, East and West travel nationally via U.S. interstate 
highways, Pennsylvania State highways as well as local 
roadways; home to the Pittsburgh International Airport, major 
railroads, underground and above-ground pipelines, traffic 
tunnels, downtown subway, hundreds of bridges, and the three 
rivers recognized as being the busiest inland water port in the 
United States.
    Allegheny County has 235 chemical facilities which the EPA 
has classified as having at least one or more of the extremely 
hazardous substances on their list of 300 with an additional 
700 others requiring EPA 312 reporting.
    This hearing is actually being held less than 2 miles away 
from one of the focal chemical facilities on the 60 Minutes 
program. That particular facility lies here in Allegheny County 
in an area that sits upwind from the city of Pittsburgh. With 
prevailing weather conditions such as today, any major release, 
accidental or intentional, would drift into the downtown 
population center within 10 to 15 minutes; before then even 
tens of thousands of people would be affected.
    We can all sleep at night through the efforts and success 
of local, State and Federal Government working together to 
craft key legislation such as the SARA Title III laws that 
occurred back in the 1980's, as well as here in Pennsylvania 
when the Pennsylvania Legislature enacted Pennsylvania Act 165. 
These two pieces of legislation and others are responsible for 
ensuring that plans, training and exercises, information, 
funding, accountability, emergency response and mitigation of 
programs are in place to ensure the safety of our community. 
Chemical safety has been taken very seriously here, and we've 
been recognized as being much ahead of the curve in prevention 
and response to chemical releases either from fixed facilities 
or a transportation accident.
    Security of our chemical facilities from an intentional act 
from within their own employees as learned from that tragic 
event in Bhopal, India, or an act of domestic or international 
terrorism has been an issue with our local emergency planners 
and local emergency planning for years, long before September 
11th. I am and those particular groups, the LEPC, are in favor 
of legislation to ensure the security of all facilities that 
use, store and transport chemicals.
    The facility that was the focus of the 60 Minutes program 
was one of our upstanding chemical facilities that sit on our 
LEPC and have one of the finest safety records that we have 
here, and we enjoy a great working relationship. We, too, at 
the local emergency planning committee and I personally was 
amazed to see the story and the issue in regards to access into 
their facility by the reporters.
    The American Chemical Council has done an excellent job in 
being out front in the security issue, but I know firsthand 
that many of the companies that I am most concerned with are 
not members of the American Chemistry Council.
    There continues to be facilities, many of them in my county 
here, that one could walk straight in under the guise of 
darkness and cause significant damage and public danger. Some 
of the facilities have no more security than maybe perhaps a 
padlock or a chain, and we would be lucky in those cases as 
well.
    The first to respond to any emergency is always the 
affected local government followed by State and Federal 
Governments. The sharing of information on security issues 
pertaining to chemical plant security and transportation issues 
needs to be enhanced to include local law enforcement 
authorities and the local emergency planning committees as soon 
as possible.
    Allegheny County, the Pennsylvania Region 13 terror threat 
assessments have all concluded that targeting one of our many 
chemical plants and/or the chemical transportation system ranks 
very high than the threat of something or somebody running 
through a neighborhood street disbursing some sort of military 
war agent.
    The best terrorist event to incur is never to let it happen 
in the first place, and this could also be said for fire safety 
as well. You can have the best trained and equipped fire 
department, but when the fire occurs, people get hurt, may die, 
and buildings are lost. All this can be minimized by good fire 
prevention, but not totally prevented. Strong fire codes and 
enforcement, smoke detectors, exit plans and sprinklers 
contribute greatly to reducing bad outcomes, so the best fire 
to have is not to have one in the first place.
    We are continuing to improve our ability to respond to a 
WMD event locally and nationwide. Congress and the President 
and all of you have made available billions of dollars for 
homeland security at the local level, and it is finally 
beginning to be seen at the lowest levels of government and 
public safety in this county. This is for planning, training, 
exercises and equipping responders. I personally don't want to 
ever test that system.
    Chemical security enhancement with the partnership of 
government as demonstrated with the great successes through 
SARA Title III as well as our local ordinances and our State 
laws through reasonable legislation and cooperation is a must. 
We need to do everything to ensure we never experience a terror 
attack again. We already know that chemical facilities and 
their transportation are a risk. Shame on us if we do not do 
everything possible to protect them. They sit in our counties, 
our cities, and towns and our neighborhoods.
    Thank you very much.
    Mr. Murphy. Thank you, Chief Full.
    [The prepared statement of Chief Full follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.007
    
    [GRAPHIC] [TIFF OMITTED] T4257.008
    
    Mr. Murphy. We will now hear from Mr. Headley, who is vice 
chairman of the Forward Township Board of Supervisors.
    Mr. Headley, please proceed.
    Mr. Headley. OK. Before we start here, I'd like to make one 
correction to my written statement. The facility in question is 
now known as Univar, but was previously known as Vopak, and in 
my statement I've used both names, and the correct current name 
is Univar.
    Thank you for the opportunity to address the panel this 
morning on an issue of local and national importance. My name 
is Tom Headley, and I'm vice chairman of the Forward Township 
Board of Supervisors, one of three part-time elected officials 
who form the governing body of our municipality.
    Forward Township has a population of just less than 3,800 
people in an area of more than 20 square miles. The area is 
mostly rural with a concentration of population around the town 
of Elizabeth and several small communities along the 
Monongahela River including the community of Bunola.
    I am here today because Univar, a distributor which 
receives, warehouses and ships a wide variety of chemicals, has 
a large facility located in Forward Township at Bunola. This 
location is one of an estimated 123 chemical facilities 
nationwide with an accidental toxic release worst-case scenario 
where more than 1 million people in the surrounding area could 
be at risk of exposure to a cloud of toxic gas. Prior to 
September 11 people in the area were aware of this facility, 
and the various chemicals were present, but were not overly 
concerned. After that date, with increased potential for acts 
of terror against a facility of this type, the vulnerability 
and security of this plant became a major concern.
    A meeting to discuss these issues with company management 
was requested. At this meeting our police chief, our emergency 
management coordinator and myself met with Vopak executives to 
review site security. It was apparent that a major upgrade was 
necessary. Our chief performed a site survey and developed a 
list of minimum security upgrades which the municipality would 
require. Management raised the issue of cost and indicated this 
expense would place them at a competitive disadvantage relative 
to others in their industry. I made it clear these improvements 
would be made either on a voluntary basis, or the township 
would pass ordinances mandating their completion.
    I am pleased to report Vopak made the recommended 
improvements costing more than $200,000. Perimeter fencing, 
automatic gates, security cameras and monitoring devices, 
improved lighting and security during off-hours were included. 
In addition, an emergency plan for the community was developed, 
a warning siren installed, and emergency information was 
distributed to all residents in the immediate area and downwind 
of the plant.
    In spite of these changes, this plant remains vulnerable. 
The 30-acre plant site runs from a State highway, Bunola River 
Road, to the Monongahela River, and includes six buildings. The 
main line of the CSX Railroad bisects the property, and 
buildings are located on both sides. Each side is fenced; 
however, the main track and the siding where loaded tank cars 
of chlorine are stored is not secured. The quantities of 
chlorine present are the reason for the serious worst-case 
scenario. In addition, there's a barge unloading facility 
located along the riverfront where chemicals are pumped from 
barges into storage tanks. More than 50 loads of various 
chemicals are shipped in and out of this location during an 
average day.
    Should there be any type of security problem at the plant 
or with a load in transit while in the township, the Forward 
Police Department would be notified to respond. We have a 
professional department with five full-time and two part-time 
officers. Normally one officer is on duty per shift. Response 
time to an incident at the plant will depend on the location of 
the officer in the township and could be more than 10 minutes 
from the time the call was received.
    Our officer can request and receive assistance from 
surrounding departments and Allegheny County, but, again, time 
is required for help to arrive. Our municipal budget is just 
over $800,000 per year, and well over half that amount 
represents police department and associated costs. The township 
is not in a position to employ sufficient police to provide 
adequate security to meet the potential threats faced by this 
facility.
    After reading the GAO report, GAO-03-439, I would like to 
make the following comments as a public official in a host 
municipality for a chemical facility, and I'll just hit the 
major points here. Those of you who have the written statement 
can see the specifics which I've added.
    Security for chemical plants must be improved. The 
government must mandate reasonable minimum security standards 
at all locations which produce, process, warehouse or 
distribute chemicals and other hazardous materials.
    Voluntary compliance or self-regulation by the industry is 
not appropriate in this situation. Substitutes for the most 
dangerous chemicals should be encouraged and strict limits 
placed on maximum allowable quantities of these materials at 
each location.
    One agency of the Federal Government must be given specific 
overall authority for chemical industry security. My suggestion 
would be the Department of Homeland Security. The present 
shared security responsibility is unwise and unable to deal 
with today's potential threats.
    The scope of any risk management plan must include not only 
the plant site, but also the risks inherent in the movement of 
materials to and from the plant.
    Money for staffing, training and equipment for local police 
departments must be made available immediately, and any new 
risk management plan must think outside the box and anticipate 
nontraditional threats.
    I thank you for your attention to this information. 
Security in these times is an issue which affects everyone 
regardless of location. From a huge city like New York with a 
population of many millions to the small town of Bunola with 
fewer than 300 residents, everyone is concerned about threats 
to their safety and well-being. Steps need to be quickly taken 
to minimize these risks, and the Federal Government must assume 
the lead role in this endeavor.
    I will be pleased to answer any questions you might have. 
Thank you.
    Mr. Murphy. Thank you, Mr. Headley.
    [The prepared statement of Mr. Headley follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.009
    
    [GRAPHIC] [TIFF OMITTED] T4257.010
    
    [GRAPHIC] [TIFF OMITTED] T4257.011
    
    [GRAPHIC] [TIFF OMITTED] T4257.012
    
    Mr. Murphy. I'd like to start off by asking a couple 
questions of each of you. I think each Member has 10 minutes to 
ask questions.
    Mr. Liscouski, let me first start off, if you could give us 
a general idea, what do you perceive is the greatest threat 
that chemical facilities face in a terrorist attack?
    Mr. Liscouski. Sir, there's probably a couple of ways to 
answer that question. In the context of the different types of 
methodology that various terrorist groups will use to target 
facilities, they're always going to look at greatest 
consequence of loss depending upon the perspective of the 
group. So if I interpret your question to say which group is 
most interested in chemical facilities or types of attack----
    Mr. Murphy. Actually, groups and, yes, types of facilities.
    Mr. Liscouski. I mean, we know al Queda has expressed 
interest in the past, based upon bogus reporting, to attack 
chemical facilities. We've had no specific reporting about 
those types of threats with locations, but we know generally 
speaking that's always been an area of interest.
    We know, based upon their tactics in the past historically 
that they've not targeted specific chemical facilities 
overseas, but we know based upon how they conducted attacks in 
the past, we extrapolate from those tactics into what we think 
we need to protect against here.
    Without going into great detail of those tactics, you know, 
we look at ways that they've attacked facilities in the past; 
we just extrapolate to those methodologies here in the United 
States.
    Mr. Murphy. One of the things that Mr. Headley has pointed 
out, that Forward Township has voluntarily complied and 
invested a great deal of money in some safety features. As I've 
read, one of the factors of the plant there and at other 
chemical plants that they can't control is they put fences 
everywhere else, but they cannot block rail traffic that 
actually goes to their facilities.
    Is that my understanding, this rail traffic goes right by 
the----
    Mr. Headley. It bisects the property. It goes right through 
the middle. Both sides are fenced, but the center portion and 
the rail sidings is not fenced.
    Mr. Murphy. So someone could enter from there, or you could 
have a chemical or a train car go through there, too.
    Are we doing some things to deal with assessing those 
vulnerabilities in the chemical plants and making changes 
there?
    Mr. Liscouski. Mr. Chairman, we're taking a whole list of 
security concerns across the Nation, and we can talk about 
specific concerns and specific sites, but I'd like to start off 
with sort of the methodology and how we look at the 
prioritization of where we need to be putting our efforts.
    And I'd like to open up again by stressing in terms of 
priority, we share very common concerns with the committee and 
with our State and local counterparts about the need to protect 
the Nation, particularly from the most dangerous threats that 
we face and where those consequences might manifest themselves, 
and my concern is in the chemical industry specifically. We 
know that we have a lot of work to do there.
    Again, DHS will be celebrating our first anniversary here 
next week, and in the context of that, the focus we've had from 
day 1 when we opened the door has been on improving our 
chemical site security plans, our strategies, and, most 
importantly, putting tactics where we need to ensure that we 
can reduce the greatest vulnerabilities we have.
    By way of context, there are many vulnerabilities across 
the United States in many critical areas, in many critical 
infrastructure areas, and even if we focus every single one of 
our resources on improving the chemical sector alone, we still 
couldn't do enough in 1 year to satisfy me. But clearly in 
terms of reducing the vulnerabilities, this is going to be a 
work in progress over a period of time. So we're prioritizing 
our efforts and looking at every available resource and tool we 
have in our tool kit to reduce those vulnerabilities.
    So in the context of the respective vulnerabilities, job 
one we have is assessing those vulnerabilities to ensure that 
we understand what do we have to focus on first, and it's 
everything from chemicals being stored--if we focus on the 
chemical sectors for purposes of this hearing, looking at 
chemicals in storage, looking at chemicals in transit, 
identifying those vulnerabilities, the mitigation techniques 
necessary, what's effective and sustainable over time.
    And to that end it's important to note here that a lot of 
the industry's concerns when they talk about money--and I'm not 
here representing the industry for a moment. I'll just tell you 
that from a practical perspective, sometimes any amount of 
money isn't sufficient enough to reduce the vulnerability in 
some cases without a long-term strategy about how that money is 
going to be implemented to reduce vulnerabilities over a long 
period of time.
    So we look at tactics in terms of which we have--what 
tactics do we have to apply to reduce vulnerabilities in the 
immediate sense, those highest priorities. We look at 
strategies and tactics that we employ over time to develop 
cost-effective, sustainable and very effective programs that 
reduce the threat, and we can respond to threats in a very 
dynamic environment.
    So to talk about which specific modality of theft in the 
context of chemicals in place or those chemicals in transit, we 
are looking at the entire chain of the chemical sector's 
vulnerabilities.
    One other point and I'll conclude, and that is it's 
important to note that when we talk about the chemical sector 
and all sectors within the critical infrastructure, that we're 
not looking at things in the context of their single 
vulnerability or their single place in the critical 
infrastructure chain. With all these sectors there are 
interdependencies, and when we talk about the impact of the 
chemical sector and what we might be able to do to reduce very 
specific vulnerabilities, we may be creating other 
vulnerabilities by reducing those.
    So we've got to take a very holistic look at the entire 
dependency chain around the companies' dependencies between the 
chemical sector, board of treatment, the production of 
pharmaceuticals and the impact of that, and this is something 
we look at very carefully, and there is a significant amount of 
work being done there as well.
    Mr. Murphy. Thank you.
    Chief Full, let me turn toward you and ask you as someone 
who deals with local first responders, and obviously they would 
be part of what we're dealing with here, I want you to describe 
for the board a scenario that there was some intentional attack 
on a chemical facility, what that would do to the region. And 
certainly there are areas of the Nation where the outcome of 
the worst-case scenario are looking at in the millions; though 
tragic here, it would be tens of thousands or hundreds of 
thousands or so. But the key in response to the first 
responders and medical facilities, do you conduct training with 
the chemical industry and fire and police departments and 
hospital personnel to cover various scenarios and drills of how 
one might react in this situation?
    Chief Full. Congressman, we do. We have, again, an 
aggressive, again, consequence management program here in 
Allegheny County which primarily does focus an awful lot on 
training and preparation and response with 5 Pennsylvania 
State-certified hazardous materials response teams, our 26 
hospitals.
    As you know, with our 130 municipalities, we have 217 
separate fire departments, 119 police departments and 70 EMS 
agencies in our county alone, and we have worked hard over the 
many years here to bring their level of training up to at least 
hazardous materials awareness and recognition, and many more of 
the departments have been operationally trained.
    There still needs to be a lot of work to be done. There 
again, through the processes of planning for a chemical 
facility release or a transportation accident in our county 
here, there's a different nature of the beast whenever you have 
responders that they're able to go out and respond to some sort 
of an accident or something that was unintentional. But there's 
a new dynamic now for first responders that are charged now 
with possibly responding to events that have been intentionally 
created with the full intent not only to kill and maim a number 
of the public, but also to kill them, even through the aspect 
of secondary issues, a secondary problem be established just to 
take out the first responders.
    But we do do the training, and it has been funded primarily 
through the SARA Title III and local emergency management and 
planning committee funds that we secure from the chemical 
plants themselves. I believe we do have a strong partnership 
with those chemical plants, but at the same time we have not 
addressed and we have no knowledge really of the things that 
have been going on behind the scenes with security with them as 
well.
    Mr. Murphy. Let me ask you, too: The EPA is supposed to 
have on file, reports of the response management plan that you 
have for chemical companies, and that information is not being 
made public, but it should be accessible.
    Have you been able to access that information?
    Chief Full. Yes, we have. And those reports are made 
available; the R&P reports and the Tier 2 reporting and all 
that reporting is made available to our office, and we 
disseminate that out to the local communities here in Allegheny 
County. It is also made available to the local fire departments 
as required under the law.
    Mr. Murphy. And has there been--we only have 2 seconds left 
for yourself and Mr. Headley--full cooperation and direct face-
to-face conversations with the chemical companies to engage the 
information you need, training for those firefighters, etc., 
for those specific chemicals onsite.
    Chief Full. We have met with a very positive response in 
most cases in that regard. I'll tell you, Congressman, one of 
the things that concerns us the most is most of the folks are 
under the regulations, the current regulations. They're not our 
biggest problems and our biggest offenders, and many of the 
other offenders are the smaller businesses as well that we are 
concerned about that have things within their properties that 
fall just under the thresholds, but, you know, you can't make a 
determination. If you have a threshold planning limit of 1,000 
pounds, can you tell me the difference between 999 pounds of 
that particular chemical and how it's going to react versus 
1,000 pounds?
    I would argue that there's not much difference, but there's 
many of the companies that have gone to--and what we want to do 
is we want to have them to limit their amount of storage and so 
forth. A lot of them have gone to putting their chemical 
storage in the transportation networks, and they have brought 
themselves a couple pounds underneath the reportable limits so 
they won't have to do additional planning, and they won't have 
to pay additional fees to reinforce and support our hazardous 
materials response program.
    Mr. Murphy. Mr. Headley, I'll give you a chance to respond 
to that, too.
    Mr. Headley. Well, I know that Forward Township, as I say, 
is home to one major chemical storage facility, and we have had 
orientations with the fire departments, not only our local fire 
departmentm but the other likely fire departments who would 
come to assist. To my knowledge, the primary focus of that 
training was a fire situation or maybe an accidental release 
rather than an intentional problem caused by someone else.
    And I'm not aware of all the training that's going on at 
the county level or the State level and the Federal level, but 
I would encourage a very strong emphasis on a coordinated 
response from the county because they're the ones that are best 
equipped to deal with a problem like this to get together with 
local police and emergency management people and train for a 
scenario where there is a willful act and an unintentional 
release as a result of that, and that would be my major 
suggestion.
    Mr. Murphy. I thank you.
    I will now turn over to Mr. Turner, who, I should also 
note, as a former mayor of Dayton, OH, has particular insight 
of the eastern involved urban areas. Mr. Chairman.
    Mr. Turner. Thank you, Mr. Chairman.
    I'm fascinated by all that has been accomplished without 
any particular legislative authority. If you listen to Mr. 
Headley and Chief Full and Mr. Liscouski, you talk about each 
of your agencies and communities and what you have done both 
with the private sectors and with companies, what the 
association for the Department of Homeland Security has done, 
there certainly are some impressive accomplishments.
    So I think from your testimony we're hearing from each of 
you that there is a very wide gap in the ability to include 
everyone in this committee; but also in the sharing of 
information from successes, we know that we have some standards 
that we're all complying with.
    Mr. Headley, you had cited the success that you had with 
Univar where you first approached the company and you requested 
access to the facility. And you were granted access to the 
facility where you were able to make recommendations, and 
through continued discussions with the company, they ultimately 
made changes, modifications as a result of your 
recommendations. And I wrote down one sentence from your 
testimony where you said: I made it clear these improvements 
would be made either on a voluntary basis, or the township 
would pass ordinances mandating their completion. Certainly 
after all this has came down to Congress as to our willingness 
to take action to provide the authority.
    I want to go back to that very first meeting that you had 
with Univar when you requested access to the facility. Did you 
have any ability to compel or demand access if they had not 
invited you in?
    Mr. Headley. I really can't answer that question because 
that situation did not arise. These people have always been a 
good neighbor. They realized that they had a problem, we 
realized they had a problem, and we decided we would work 
together to solve that problem, and it was done on a very open 
and amicable basis.
    My concern is there are probably--based on what I'm hearing 
from the other two gentlemen on this panel, there are numbers 
of other plants and facilities throughout the country who maybe 
don't have that cooperative attitude, and that's why my 
recommendation would be that you have to have some Federal 
legislation with some teeth in it to mandate that these people 
comply, because, being a businessman myself, everything comes 
down to cost, and you don't want to put one company at a 
competitive disadvantage to another, and if you do force some 
and not others, then the people who have not made the required 
improvements and made the required investments are going to be 
more competitive and will be able to sell at a lower price 
because they haven't spent the money. And that's not fair, and 
it doesn't make common sense.
    Mr. Turner. Your proactive efforts are certainly to be 
commended, and one thing that I thought of in hearing your 
description of doing an assessment and providing the company 
with information as to your recommendations is to what extent 
are we working to capture that.
    Are you working with other agencies on a State or Federal 
level so that we can benefit from your experience so that when 
we look at the standards of other facilities, that might be 
able to be replicated?
    Mr. Headley. Well, most of the things that we did were 
common-sense things, and I think obviously somebody with a much 
higher degree of sophistication and ability, such as Department 
of Homeland Security and maybe the chemical industry, in 
concert should develop standards, because all we did, as I say, 
were common-sense things. I'm sure there are a multitude of 
other improvements and changes that should be made and could be 
made, but we are not aware of that.
    Mr. Turner. In your testimony in calling for Federal 
oversight and authority, you specifically identify the 
Department of Homeland Security as your recommended choice for 
that authority, and I wonder if you could give us your insight 
as to why you didn't choose the EPA where some individuals have 
advocated that.
    Mr. Headley. Well, in my printed statement I just--and this 
is not meant to be all-inclusive, but when you take a look at 
the entire problem, the storage and the transportation of 
chemicals, you have a multitude of various Federal agencies, 
and getting five or six different agencies or seven or eight 
different agencies to work together to do this is probably--
it's probably not most effectively done on a cooperative basis.
    My recommendation would be that somebody have the ultimate 
authority to require everyone else to go along, because there 
are too many people who have a piece of the regulatory or 
enforcement pie for any of them to do an effective job 
individually.
    Mr. Turner. Chief Full, in your testimony you also 
indicated that there was a need for Federal authority or for an 
agency to have oversight, but you did not identify a preference 
as to EPA or Department of Homeland Security. I wondered if you 
had one.
    Chief Full. I didn't do it intentionally. My recommendation 
would be the Department of Homeland Security.
    I believe with all the efforts that have been done to date 
with channeling various levels of government into the 
Department as it would pertain to terrorism prevention and also 
security issues, even consequence management, I believe that 
has been very, very positive compared to the way it used to be 
with everybody having to go out and you would go on the 
Internet, or you would open up the White Pages, and you would 
go into that blue section and look what level of government, 
what agency covers this. But clearly I believe that this is 
something that the expertise lies in the Department of Homeland 
Security.
    Mr. Turner. Chief Full, have you experienced instances 
where there might be a company or facility where they have not 
been helpful in providing access? You don't have to name them, 
but I'd like you just to describe if that has happened and what 
your attempts might be to resolve that.
    Chief Full. Yes, we have. And literally we've been on the 
doorstep of chemical facilities that have had obvious leaks, 
even in progress, over the course of my experience and so forth 
where we had to stand there with law enforcement and threaten 
the arrest of the occupants of the building so we could gain 
access to see what was actually leaking in the chemical 
facility itself.
    I come with 32 years of emergency response experience, and 
I've documented over 1,000 chemical spill responses in my 
career, and in my career in those chemical responses I've had 
the opportunity to experience a few of those situations. The 
vast majority of companies are compliant.
    We probably have a greater threat--I know we're focused in 
on the facilities themselves. There's a lot of expertise that 
lies in the facilities, but I think that there is a tremendous 
void on the transportation networks and the quality of training 
of the drivers of the trucks that are carrying chemicals, and 
the railroads and the ready information that would be readily 
at hand.
    If I had to pick my choice or the thing that would most 
disturb me or have the greatest consequence in our community 
would be an event regarding a chemical transportation incident. 
Obviously they would be moving the chemicals in and out of one 
of our facilities, but there are great limitations in quick 
access to information and so forth in dealing with those from 
the first responder's aspect.
    Here in our county, being a major transportation network, 
we fear even out here on the local interstate when a truck 
driver carrying some very serious chemicals--and they're all 
very serious, some of them are as serious as the Bhopal 
chemical that was released in Bhopal--that if the driver 
decides at a rest stop to go in and take a rest for a few 
minutes and leaves that truck running here, they can drive--
pick up that truck and drive it into the downtown business 
district or through one of our communities.
    We have the inland barge traffic here in our community 
here. Those barges carry 770,000 gallons of various chemicals. 
We have the second, I understand, largest chemical loading in 
our community of any inland port. All it would take is somebody 
with a--some sort of a small device to throw it off one of our 
bridges onto one of those tank barges, and we would have a 
significant problem.
    A lot of other folks take a look at these extremely 
hazardous substances as well. We believe that the bulk storage 
chemicals, your fuels and even something as mundane as diesel 
fuel, can wreak havoc in a community.
    We are known here as being one of the inland oil spill 
capitals of the world, and back in 1988 we had a significant 
release of over a million gallons of diesel fuel that went into 
our rivers that impacted our community for over a week with 
people not being able to draw water.
    In 1987, we had a train derailment involving a major 
release of chemical and fire, which necessitated an evacuation 
of 16,000 people in the city of Pittsburgh for 2 days.
    We know firsthand what it would take in the event that if 
we would have an act which would occur with these facilities in 
our neighborhoods and so forth, that we can't quickly enough 
protect the population, and there would be so many of them 
affected, and that's very hard to deal with.
    Mr. Turner. I thank you, sir.
    I thank you, Mr. Chairman.
    Mr. Murphy. Thank you, Mr. Turner.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Murphy.
    Following this panel we will have GAO address us, and I 
just would like to put in some perspective what we're going to 
hear and have all of you respond; Mr. Liscouski, you put into 
perspective the so-called worst-case scenario of 127--123 
chemical facilities throughout the United States that could 
potentially expose 1 million people, 700 facilities that could 
potentially threaten 100,000 people, and 3,000 facilities that 
could potentially threaten 10,000 people. What does that mean?
    Mr. Liscouski. I think this is drawn from the R&P data 
base, sir.
    Mr. Shays. Could you bring your microphone closer?
    Mr. Liscouski. Sure.
    Mr. Shays. Thank you.
    Mr. Liscouski. I think the GAO data you're referring to is 
drawn off of the R&P data base by EPA.
    Mr. Shays. What does that mean, though? I don't know how to 
translate it. I mean, I want to give you an opportunity to tell 
me what it means.
    If you're saying there are 123 chemical sites that could 
negatively impact a million people, I need to know as a 
legislator what that means. I don't know what that means. I 
want to know what it means to you; I think I know what it means 
to me.
    Mr. Liscouski. First off, I think we have to level-set the 
numbers. The numbers that we're dealing with from that lineup 
to the R&P data base of 15,000 sites in that data base are 
drawn off of data based upon absolute worst-case safety-based 
scenarios. Those don't correspond to what we look at from a 
tourism perspective and realistic plume models that would 
ultimately have to be projected and then a determination made 
upon how large of a population. So the numbers we're dealing 
with are somewhat different than the numbers off of the R&P 
data base.
    When we went through the prioritization of the chemical 
sites around the United States, we had to apply more realistic 
and more deterministic models to understand what the impact of 
a terrorist attack would be, and then subsequently what the 
effect would be on the population. So our numbers are different 
than what's been purported in the R&P data base to allow us to 
really focus on realities based upon the plume modeling. So 
we're drawing off of two sets of data, sir.
    Mr. Shays. This committee began to undertake the terrorist 
threat in 1999. We rewrote our rules so that we would look at 
terrorists at home and abroad. We had 20 hearings before 
September 11th, in which we discussed various scenarios. We had 
the three primary commissions come before us: Hart-Rudman, 
Gilmore and the Bremer Commission. They all agreed there's a 
terrorist threat, they all agreed that we needed a new 
strategy, and they all agreed we needed to reorganize the 
government, but Hart-Rudman ultimately was the most radical.
    When we and this committee talked to Americans before 
September 11th about the need to reorganize and create a 
Department of Homeland Security, the basic response was, what 
are we, Great Britain? There was just no willingness to come to 
grips with the terrorist threat. We had September 11th, we 
basically took the Hart-Rudman model, we created a department 
that you now work for.
    Is it your sense that it was a wise thing in creating the 
Department of Homeland Security?
    Mr. Liscouski. Without question. I mean, without question, 
because I think the opportunities that have been presented to 
DHS for coordination for preparedness response, protection 
response without question have added value to America's 
security.
    Mr. Shays. Well, we probably should have done it sooner, no 
doubt about that. The reason we didn't do it sooner in part was 
those in government didn't fully comprehend the threat, and 
clearly the public didn't.
    And so I'd love to get a sense from you how much do you 
think the public has a right to know about the threat? I mean, 
in this community, for instance, what are they allowed to know, 
and where do we draw the line?
    Mr. Liscouski. If I can just take the liberty of engaging 
with you just to describe it further, because my sense when we 
say was there a right to know the threat, the public has a good 
understanding of the threat, we have a duty to inform the 
public about the threat, so we clearly communicate threat 
information fairly robustly and, in some folks' consternation, 
probably too much information at times. And we don't have 
perfect information, but that's just the nature of the 
intelligence that we have access to. But there are many other 
components to managing the threat, and I believe, sir, that's 
what you're referencing when you ask the public's right to 
know.
    Mr. Shays. Not just the threat. I don't mean threat in a 
generic way, code orange and so on. I mean does the public have 
a right to know about vulnerabilities?
    Mr. Liscouski. Vulnerability, that's what I was about to 
get to. There's a whole chain of events that goes into 
protecting the public, some of which, as we discussed, should 
not be within the public's purview for knowledge related to 
protection responsibilities and protection methodologies.
    Mr. Shays. Can you give me a hypothetical what they should 
never have a right to know?
    Mr. Liscouski. Well, I can just talk holistically about 
what the program is, and maybe I can add some more clarity to 
the approach, and I would be happy to get down to the details.
    As we heard Chief Full describe and Mr. Headley describe 
about their abilities to understand what they need to know 
about the--at the local level, there is no question, and DHS is 
actively engaged in this process, and I speak of DHS and the 
Federal Government at large in sharing that information with 
those State and local authorities who have to prepare, have to 
respond to, have to understand what the first-responder 
requirements are. In the context of working with State and 
local authorities, we share information with the local police 
through the Homeland Security Advisory and through other 
mechanisms about protective methodologies and vulnerabilities.
    So we regularly share with the public in the context of the 
authorities that ultimately have responsibility at the local 
level to interact with the public. The constituencies here are 
many and varied, and I wouldn't want to speak for either 
gentleman on each side of me about how they view their 
respective constituencies, but clearly we all strive to share 
as much information as we can, and I think we do a pretty good 
job at it, but clearly we need to do a better job at it, 
there's no doubt about that.
    We have a number of information-sharing mechanisms to go 
out to the public, to the private sector, to the State and 
local governments. Since DHS has been established, the 
Information Sharing Analysis Centers, the information bulletins 
we regularly and routinely put out not just about the threat 
information to raise the alert level, but on preparedness and 
prevention and protective measures, which we routinely share 
with all government.
    So I think we're in agreement, sir, about the public 
needing to know. We clearly share the information, so I 
appreciate your perspective.
    Mr. Shays. OK. I'm not sure if we're connecting because I 
find tremendous reluctance on the part of the government to 
inform the public, and, for instance, I find it beyond my 
comprehension to know why--what code are we at right now?
    Mr. Liscouski. Yellow, sir.
    Mr. Shays. Yellow means there's a likelihood for an attack.
    Mr. Liscouski. It's elevated risk, right.
    Mr. Shays. Elevated, in other words, it's not general, but 
we're acting like it's general, and to the general public it's 
general; you know, we're under a threat, but we're on one level 
above. But yet we went to code orange, which meant, you know, 
there was a serious likelihood of attack. We knew we had 
concerns about planes, and we had concerns about dirty weapons 
in public places. We told the public that basically they should 
continue to do what they normally do.
    So, I mean, I have a pretty big dispute that you and I will 
have to resolve with the Department on going to code orange and 
yet telling people do what you normally would do.
    But let me just ask you in terms here, if we have 123 sites 
that could impact a million people, as you pointed out and I 
agree with, the plume isn't going to go in 360 degrees. If it 
did, it probably would not have the concentration to be as 
deadly, at least as to the distances, as you got into more 
distance. But you have two sites here; you have the Neville 
Chemical and Univar, which is in your area. Don't we have a 
sense that the plumes will more likely go in a certain 
direction? Don't we have historic data that would tell us that 
would be the case?
    Mr. Liscouski. Yes, sir, we do. In fact, that's how we were 
able to further refine the R&P list from 15,000 to the list 
that we have of about 4,012.
    Mr. Shays. No. That's different; 15,000 are the number of 
chemical plants.
    Mr. Liscouski. Well, 15,000 are the R&P data base, which I 
believe were reflective of an impact of 1,000 people or more.
    Mr. Shays. Yes. But, see, 1,000 people or more to me 
doesn't tell me anything. That implies there's 1,000. Those 
1,000 could be 100,000. I mean, the 1,000 or more--you get my 
gist?
    Mr. Liscouski. No, sir, actually, I don't. The R&P data 
base considered the worst-case scenario from an EPA 
perspective.
    Mr. Shays. 4,000 sites.
    Mr. Liscouski. No, sir, 15,000. The R&P data base, which 
was drawn by EPA, considered the worst-case scenario as related 
to the plume modeling perspective, which is virtually a 360-
degree plume model----
    Mr. Shays. Right.
    Mr. Liscouski [continuing]. Because of the safety concerns 
and what the EPA mandated from a safety perspective.
    The plume modeling we applied from NARAC was a more 
realistic plume model based upon historical environmental 
conditions and the understanding of where the plume models 
would impact on the populations, and we adjusted that within 
the context of the plume model to, again, be a worst-case 
scenario, further refine the numbers.
    Let me just respond to one thing you mentioned earlier.
    Mr. Shays. I'm not quite sure--you can go on to your 
agenda, but I'm not quite sure you responded to what I'm just 
trying to understand.
    Mr. Liscouski. Sure. And I apologize. I'm not trying to 
obfuscate you, I'm trying to understand your question.
    Mr. Shays. You have a lot of knowledge, and I want to make 
sure I know it, but allow me to understand. We're not talking 
about 4,000 sites; 1,000 more----
    Mr. Liscouski. Yes, sir, 4,000 sites.
    Mr. Shays. Let's just deal with 4,000 sites, 1,000 or more. 
What I was trying to convey to you is when you--let me just 
tell you why I have this bias----
    Mr. Liscouski. Sure.
    Mr. Shays [continuing]. And concern.
    I voted for the Patriot Act. A majority of my constituents 
aren't sure they like the Patriot Act, I'm making that 
assumption. Congress repealed the power of us to go into a 
library, take the hard disk, understand who a terrorist may be 
talking to, being able to not have to tell the terrorist that 
we think they're a terrorist so that they go back and continue 
to communicate so that we can improve our intelligence.
    I happen to believe strongly in the Patriot Act. I've come 
to the conclusion that the public doesn't believe the Patriot 
Act because they don't think there's a terrorist threat out 
there. And I have certainly come to the conclusion they don't 
think there's a terrorist threat because I think we haven't 
conveyed a terrorist threat because we don't want people to be 
needlessly concerned.
    And so in the process of trying to not scare people, we 
are, in my judgment, endangering the public and weakening our 
ability to get information, because some of the powers that we 
need in order to get information may disappear because we may 
not renew the Patriot Act.
    I'm just trying to put context to my question--I have this 
basic view that we need to tell people a threat, and then they 
get some power to deal with it, and then we both have a good 
sense of why that's happening.
    When you say 4,000 sites, 1,000 or more, there are how many 
sites with 100,000 or more of that 4,000, and that's what 
concerns me.
    Mr. Liscouski. And as we've gone through the refinement 
process, sir, that's precisely how we've begun to prioritize 
our efforts. So I think we're very much in alignment and 
understand our priorities as you've just articulated them.
    One thing, as Chairman Murphy understands well, that we 
don't want to create a situation with the public where we 
create panic around the situation by not providing information. 
And by the same token, sir, you're a psychologist, so, 
therefore, you've got a much deeper background in this than I, 
but I know from the concerns that we have in terms of getting 
the public to do the right thing and providing enough 
information, I agree with you, not enough information can 
create the same condition as too much information which might 
be shared irresponsibly.
    DHS, as you pointed out, I think, has been fairly good, and 
our track record has been very good over the past several 
months and has gotten better. Sharing information with State 
and local authorities and sharing information with our industry 
partners and sharing information with the public, we've tried 
to give as much context around the threat to allow people to 
plan, to allow people to understand what the threat means to 
them.
    The one thing we don't control, frankly, is the information 
that the Intelligence Community can ultimately generate and 
acquire, and the information, you know, that can provide the 
appropriate level of context to the general population.
    Mr. Shays. Let me just ask our two other participants--do 
you mind if I have an additional 5 minutes?
    Mr. Murphy. Not at all.
    Mr. Shays. Have you both been told about plume modeling at 
either site, and do you have a sense of where these plumes go?
    Chief Full. I have not been told of those. I know in our 
own planning we do for accidental releases, we deal with the 
fact that we have prevailing weather issues, but we also have 
experienced events here that with that type of release that 
we've had instantaneous wind changes and things along those 
lines, and my experience lends itself to that even though that 
we know it's going to go probably in one direction, that 
through a course of a major event, it could go and turn around. 
And we have had past history in that regard. We have no 
knowledge of that. Usually when we're asked, it's emergency 
planners, plant people that have said, what do you think the 
worst case is? But there's very little or no science behind it.
    Mr. Shays. Mr. Headley, are you pleased with the security 
model?
    Mr. Headley. Pleased is a relative term. We're certainly 
far better off than we were 2 years ago, but I think there's 
some room for improvement.
    If I might want--I'd like to add one other thing, and in 
Mr. Liscouski's favor I think what we have here is EPA--
information that was developed that the EPA modeled for one 
purpose, and we are trying to use it possibly for another 
purpose. And I think it's important that Homeland Security or 
whoever it is that's charged with the responsibility to do an 
accurate assessment given a terrorist scenario rather than an 
accidental release scenario, which is what was used to develop 
the EPA model.
    And one thing, not to alarm anyone, but the EPA model is 
based, I believe--I'm not an expert on this--on the largest 
uncontrolled release from one particular vessel, whether it be 
a tank or a tank car or a truck or whatever; it did not 
anticipate the possibility for multiple releases from multiple 
trucks or tanks or railroad cars, and we have those scenarios 
in a terrorist situation that weren't present in an accidental 
release scenario, and I think those need to be examined.
    Mr. Shays. Coincidentally, Mr. Murphy and I are 
participating in an exercise called Dark Porthole, which will 
address the potential impact of a combination of different 
types of attacks.
    I feel like I'm just starting to edge into something that I 
would like to get into in more depth, but I guess what I'd like 
to ask all three of you is EPA is not here, and I have my own 
sense of why they're not here, they refused to come, and yet 
EPA has the expertise, it seems to me, at least in the past, 
and they have--it seems to me that a terrorist attack would 
create a greater challenge than one that would be national--
first of all, let me back up and say the chemical industry has 
an unbelievably good record of safety. It is just astounding in 
one sense how successful it has been, but that's based on 
everybody doing their job and people of goodwill working in the 
plant; it's not based on someone infiltrating the plant. It's 
not based on a plane attack, so on and so on.
    So I guess what I'd like to ask as my last question for 
this round is should I believe that a terrorist attack would be 
less deadly or more deadly than what EPA has used as their 
scenario?
    Maybe I'll start with you.
    Mr. Liscouski. Yeah, and I appreciate the opportunity to 
respond to that because I guess from my perspective as 
responsible for infrastructure protection, there isn't a single 
death that we want to live with. I think we have to level-set 
that.
    We're getting kind of caught up in a numbers discussion 
here. We're going to be candid with you, it's not realistic to 
think we can prevent anything or every event. But I think our 
goal is to actually try to prevent every event that we possibly 
can.
    Mr. Shays. See, the difference is that chemical plants we 
allow to be near the public because we thought people of 
goodwill would be in charge, and now the scenario is different. 
Just as before World War II, we moved chemical plants inland 
because we were concerned of their vulnerability on the 
shoreline. You know, that was World War II. Then we had a 
Communist threat, and now we have the terrorist threat, and the 
terrorist threat seems to me to change all the assumptions.
    Mr. Liscouski. Well, it does change all the assumptions, 
and the discussion we're having today is predicated on our 
thinking around the September 11 environment. And on that level 
we have to think about the DHS prospective and my colleagues 
here is that we have to think in a dynamic threat environment 
which does evolve.
    So I think, you know, I'm glad to see the support for this 
because, quite candidly, the recognition of how challenging 
this problem is, is something which we need a lot of public 
education on. We are not standing still and remediating 
vulnerabilities in the highest priority sites that we have, and 
I wish I had a magic wand or a crystal ball----
    Mr. Shays. My question I asked--and my time has run out--
the question I asked was the EPA came out with their worst-case 
scenario, which we knew as a 360-degree plume and so on, but 
that notwithstanding, it seems to me, and correct me if I'm 
wrong, I can ask the next industry, but I'd like to know--I 
know what I'm going to ask them, and I don't know what they're 
going to say, but I want to know what you are going to say to 
the same question.
    Do you believe that a terrorist attack in a chemical plant 
would be more serious, more likely to be more serious than one 
that would be accidental?
    Mr. Liscouski. Well, the potential is there. I mean, 
there's clearly no question when we talk about the potential, 
the potential for a terrorist attack to exceed an accidental 
release depending upon where we are on the scale, you know, 
that's just a reality.
    Mr. Shays. So the question----
    Mr. Liscouski. I think in the various scenarios you have, I 
could come up with scenarios that would be less catastrophic 
than an accidental release. I can come up with scenarios that 
would be more catastrophic.
    Mr. Shays. So what do you finally conclude?
    Mr. Liscouski. I'm concluding, sir, we're planning based on 
the priorities that we have of catastrophic loss. We're not 
stopping at a specific end line for total continuous 
improvement for the chemical sector.
    I guess I don't want to be put into a box to say could a 
terrorist attack be worse than a worst-case scenario of an EPA 
release. I think if I look at the way the EPA data----
    Mr. Shays. The answer would be yes.
    Mr. Liscouski. No, sir.
    Mr. Shays. The answer would be yes.
    Mr. Liscouski. The answer would be no, then, I think, 
because the EPA worst-case scenario considers a 360-degree 
plume.
    Mr. Shays. Well, other than the 360-degree plume.
    Mr. Liscouski. I can't qualify it.
    Mr. Shays. You have to make assumptions.
    Mr. Liscouski. I am.
    Mr. Shays. Let's just say the plume goes in one direction. 
I'm talking about the accident in a facility. Isn't it true 
that if you have an accident, you can focus on it; whereas, if 
it's terrorist, you might have more than one event in a 
chemical site and under that circumstance wouldn't it be worse?
    Mr. Liscouski. No, sir. I think there's a lot of education, 
I think, that has to go on here, and I regret that EPA isn't 
here. They could probably respond to their EPA modeling and 
what the worst-case scenarios are better than I because I don't 
pretend to be an EPA expert.
    Mr. Shays. This is one of the things that this hearing has 
pointed out is that clearly the administration doesn't want EPA 
to be involved in this.
    Mr. Liscouski. I can't speak to why they're not here.
    Mr. Shays. I am. I have the floor right now; I can speak to 
it. We've asked them--we know why they don't want to be here. 
We know there's a significant challenge. And one of the things 
before we let this panel go, I want to understand your 
relationship with the EPA.
    I thank you for the time, and I'll come back.
    Mr. Murphy. Thank you, Mr. Shays.
    I have a list of what EPA requires reports on, some 350 
different chemicals that they're considered extremely hazardous 
substances of various levels.
    As I look over this list, I mean, I obviously have to be a 
Ph.D. in chemistry to understand all the effects of all this, 
but, Chief Full, it brings to mind a comment you made earlier 
which particularly concerned me, and you said that companies 
may have some storage of some chemicals onsite, and that they 
may have to report or take certain actions if they are above a 
certain threshold, and they intentionally lower the amount of 
chemical onsite so that they do not have to take the same 
security steps. I want to make sure I understand that 
correctly. That's quite concerning to me.
    Chief Full. I don't believe that I can justify that they 
may do it for security purposes, but we do know that they do it 
on the process of minimizing their exposure to pay for chemical 
fees and so forth that have been allowed under the particular 
law.
    And so, you know, if they're doing it for security 
purposes, then that certainly would be very, very tragic and 
just very disturbing to me. But I know for a fact, and it's 
been just a--it's been an ongoing effort over the last several 
years that the chemical industry has reduced the amount of 
chemicals that are typically stored on their facilities, and 
much more of those chemicals are being placed into the 
transportation network versus being stored at plants.
    Mr. Murphy. Thank you.
    Another question I have relates to first responders, and I 
know Congress has appropriated a significant amount of money 
over the last several years to deal with this. I mean, with the 
Clinton administration there was 100 million put into the 
budget in fiscal year 2001, and the Bush I budget was $360 
million, and then $750 for 2003, $750 million for 2004 and 
continue on with that.
    And I know looking at the kind of grants the local fire 
departments receive around my area, and my colleagues can 
attest to that, too, are they getting the right kind of 
equipment needed in areas where there might be chemical 
vulnerabilities?
    Chief Full. Congressman, right now I can say that the money 
is beginning to get to the right level, but, you know, the 
first appropriations took place several years ago. It's taken 
way too long to be able to get some of the moneys and the 
purchasing done to the local level. And what's occurred here, I 
know in my county I can say that we have now put equipment out 
in the law enforcement community, the fire service, the EMS 
community, and enhanced our hazardous materials teams, but we 
are just scratching the surface on their needs.
    And what we have found now, that now that the money has 
down to the local levels, the vendors now are being inundated 
with the request for equipment, they can't fill the orders fast 
enough. So I believe the logjam here in even Pennsylvania has 
been corrected, but the vendors, again, can't fill the orders 
fast enough, but we're satisfied right now with the way that 
the money is coming. There is concerns the way that--whether or 
not that they will be shut off anytime sooner, and as well we 
would like more discretionary control over how some of the 
moneys are being spent in regards to how they can be used for 
exercises and some particular training.
    Mr. Murphy. Thank you.
    Mr. Liscouski, I have a question for you. Without revealing 
things that were given to us in security briefings, repeatedly 
we hear patterns of terrorists that they go back and repeat 
their goals and their tactics until they achieve some results. 
And we've heard repeatedly comments from Bin Laden and from 
other terrorist networks that they're looking at something on 
the level of spectacular or massive in terms of casualties or 
injuries in the United States.
    In a chemical area--and actually a big chemical attack we 
had was not done by external terrorists at all, it was actually 
done in the Oklahoma City bombing. It was done with fertilizer 
and using other chemical components there in a way that the 
chemicals can be controlled, and someone can use chemicals for 
a weapon.
    It comes down to when dealing with terrorists, they're 
looking for something that also shows the vulnerabilities. I 
mean, that's the terrorists; they want to frighten people to 
hurt the economy, to shut down industries and to really harm 
many people whether it's personally, healthwise, politically or 
whatever that is.
    Are we in an area of intentional access where someone may 
take chemicals, purchase them legally or whatever, and use them 
in some way as weapons of mass destruction? Are we also making 
some headway on any sort of regulatory efforts in controlling 
that aspect?
    Mr. Liscouski. Sir, I can't speak to the regulatory aspects 
of that, that's an EPA issue; however, working closely with the 
FBI and other partners in the law enforcement community, the 
FBI has very strong authority on following up reports of 
incidents that might include sabotage or forging of documents 
for obtaining those materials for elicit purposes. That's not 
within my area of responsibility and expertise. I can add value 
to it, but I'm afraid I wouldn't do it justice with respect to 
the Federal Bureau in that regard.
    We're concerned about it. We look at all those 
vulnerabilities. I haven't seen specific reporting or evidence 
that al Queda is using those tactics to apply chemicals. I have 
seen reporting historically of other U.S.-based groups, 
frankly, that you are particularly referring to as well of 
using that type of----
    Mr. Murphy. More domestic terrorists.
    Mr. Liscouski. More domestic terrorists.
    We're looking at all aspects. I don't want to minimize that 
as a threat. We look at all aspects of that, but I have to then 
relate to my stronger partnership with the FBI, other Federal 
and State and local agencies that have to remain investigative 
in the law enforcement field.
    Mr. Murphy. Thank you.
    Mr. Turner, 5 minutes.
    Mr. Turner. I would like to go back to an issue that 
Chairman Murphy raised in the initial questions; that is, the 
availability of public information not on the issue of 
terrorist threats, but through the EPA processes and where 
we've allowed information to be out in the public and that 
might aid someone that has a threat potential for a facility.
    I want to tell you that I'm a big fan of the community 
participatory process that the EPA laws, regulations have 
permitted. They give both environmental groups and community 
groups an opportunity to bolster the responses of government by 
actively participating, and then that way they can have a stake 
on the effect or outcome being positive in the regulatory 
process of responses at these facilities.
    But we've already recognized that those very same processes 
that enhance the community's local participation also provide 
information to bad actors to recognize the testimony that, for 
example, the information concerning these facilities can be 
taken off the Internet.
    I'd like, if you will, for each of you to talk for a moment 
about your concerns you might have about the availability of 
some of this information to the public and also then your 
concerns, and specifically Mr. Headley and Chief Full, of your 
desire--obviously the communities benefit from some of this 
information being public so the community can participate, but 
at the same time our terrorist threat has--might change our 
evaluation of that. I'd like you to comment.
    First, Mr. Headley.
    Mr. Headley. Well, Chief Full is the one who could most 
adequately describe what the progression of information is from 
Homeland Security through our police department; and then 
whether that information is disseminated directly to the 
chemical industry and then through their chain, I really don't 
know.
    I know that from time to time information is passed along, 
I believe, from the FBI to the police department that there is 
some concern about something specific, and our police 
department takes additional steps to try to recognize that 
threat. Beyond that I'm not--I don't have expertise to speak to 
that issue.
    Mr. Turner. Just to reiterate, the question is about--and I 
appreciate your comments, Mr. Headley, about terrorist threats, 
but my question is about the availability of information with 
respect to the regulatory process pertainable to planning for 
emergency responses, permitting processes for these facilities. 
So much of our information, including what is stored at a 
facility, how the facility might respond and what its 
vulnerabilities might be have been made public through the EPA 
process of allowing communities to understand what's going on 
in their backyard. I was just wondering about contrasting that 
with given the fact that this information is made available to 
the public, but it's also available to people who we would not 
want to have it.
    Chief Full. I wish I could give you a solid answer, 
Congressman. I have mixed emotions about it. I was one who 
was--very much like yourself, I was very supportive of being in 
the public arena.
    We pride ourselves even with our local emergency planning 
committee here with 60 members, with a vast array of public and 
private participation and all the various groups and so forth, 
but since September 11th it's very hard to take out of the 
mind-set that somebody could realize that one of the products 
inside one of those facilities would be ideal to wreak havoc.
    With that said, though, I believe that here at the local 
level there are ways to get around that, that government, as 
long as we've established a procedure that when people want 
information, and rightfully so--I mean, a resident living next 
door to a community chemical plant should still have the right 
to be able to see what's in that plant, and we've established 
procedures for that through our local emergency planning 
committee that they can come in and see all that. But to have 
it out in the open arena, we've sort of gone away from the 
thoughts that we don't want people to be able to search around 
there for the best case or where they can maximize the most 
damage on the Internet, but we have still established ways that 
people can find that information out by visiting us or calling 
us, and we'll work with them on a one-on-one basis.
    But for somebody to call up right now, what would concern 
me is you get a general call from somebody that says, I'd like 
a list of all your chemical plants and all your chemical plants 
that have these following chemicals. That kind of a request 
would be very suspicious to us right now, and we wouldn't honor 
that request, but a legitimate request from a resident or a 
particular government official or something along those lines, 
we would make any and all of our information still available to 
them.
    Mr. Liscouski. Mr. Turner, thank you.
    And I probably have the easiest answer in this space than 
anyone does, but I do that out of compassion for my colleagues, 
because from a pure protective standpoint I prefer we share no 
information with the general public. If we could prevent people 
in the open-source world from gaining access to information 
which could be used to exploit vulnerabilities, I'm all over 
that, and if I was at the one end of the spectrum to suggest 
that's what we ought to do, I'm here to tell you that I'm 
mandated, I'm charged with trying to protect the critical 
infrastructure of the United States, and that's a tool in the 
tool kit.
    Now, I say that, but by the same token I know that my 
colleagues at the local level have to live in that space, and 
not having information really hampers their ability to do that. 
We're not going to prescribe how we share information or what 
the local officials share with their constituency and the 
population. As Chief Full pointed out, they can do that, they 
live with that, they live in the local area, they know the 
locals, they can talk with folks, they can share information 
responsibly.
    It's a national problem, but there's no Federal answer for 
this at the local level to respond to it. But I can tell you 
that it's my concern that we do protect information that can be 
exploited by terrorist groups and others that are looking to do 
us harm.
    Mr. Headley. If I might just add one thing, if you're 
talking about availability of information, on February 13th I 
downloaded the TRI data on this facility from the Internet, 
which tells you all the quantities--the reporting here was 
2001, it's not the most recent information, but if someone is 
interested in what chemicals are at that facility, it's widely 
available.
    Mr. Murphy. OK. Thank you, Mr. Chairman.
    Mr. Shays.
    Mr. Shays. Thank you. Maybe the best way to spend my time 
is to understand EPA's role and DHS's role. I don't really 
quite understand it. I don't understand whether the EPA has any 
role over the terrorist threat, and if not I need to know why, 
so maybe you can start me out.
    Mr. Liscouski. Sure. Let me start by describing what DHS's 
role here is vis-a-vis the Homeland Security Act and then how 
that's evolved or how we got to the Homeland Security Act and 
what that means to DHS and then how that's evolving in the 
context of providing security in cooperation with EPA.
    Homeland Security Act 2002 established DHS----
    Mr. Shays. Can you move the mic closer.
    Mr. Liscouski. Excuse me, sir. I'm sorry.
    The Homeland Security Act of 2002 established DHS as the 
lead agency for chemical security in the chemical sector and in 
partnership with the EPA we're pursuing that. And that was a 
balance between safety and security. We did not assume the 
responsibilities for safety for which DHS--EPA--has the clear 
mandate, and the legislative and regulatory authority for 
safety programs are crucial, as we're discussing here, to 
providing good foundation for security. You cannot separate 
those two things. But the responsibility for security for DHS, 
it was never intended to be a separate or mutually exclusive 
responsibility that moved to DHS without the cooperation of the 
EPA. We can't do that. I would never support it.
    If the law provided for that I would quickly develop the 
relationships that I needed within the EPA to draw upon their 
expertise in this area because they have that domain expertise. 
Good government doesn't mean we should replicate 
responsibilities; good government means that we leverage 
responsibilities and capabilities across our government and 
that's precisely what we're doing with the EPA.
    We work closely with the EPA to understand what the threats 
are, understand the priorities and, most importantly, the 
solutions and the remedies to the vulnerabilities.
    To extend the Homeland Security Act 2002 which was 
effectively a strategy for what good nationwide homeland 
security is, the Homeland Security Presidential Directive No. 
7, just recently signed by President Bush in December, is how 
we have to do those responsibilities collectively.
    We're in the process of developing those, the tactics 
behind that strategy and the partnerships between the 
respective agencies that have responsibilities for all critical 
infrastructure; we're in dialog and constant negotiation with 
these agencies, and specifically with EPA, determining how we 
broker the respective responsibilities for ensuring we have 
protection for chemical, as well as the Department of 
Transportation who has authority in this area, as well as TSA 
and the Coast Guard who have authority in this area.
    So we're taking a very holistic look at an end-to-end sort 
of perspective for chemical security effective at the ports, in 
transit, and ultimately in place at the sites themselves. So 
that has a responsibility broad spectrum across, as I pointed 
out, EPA, Coast Guard, DFT, TSA, DHS at a greater role, and 
probably a couple others that are not coming to mind.
    So this is intended to be a very well-coordinated effort. 
DHS has responsibility in the context of actually doing the 
tactical things as well as the strategic responsibility of 
coordinating our efforts nationwide.
    Mr. Shays. There's no Federal law evidently that explicitly 
requires all chemical facilities to take security actions to 
safeguard their facilities against terrorist attack.
    Do you think this is wise and, if so, why?
    Mr. Liscouski. Well, MTSA is responsible for the act 
enabling the Coast Guard with their oversight role in this area 
for the ports by virtue gives the Coast Guard that authority in 
part.
    And working with the Coast Guard and, as I pointed out, 
with DOT, we believe that, you know, we can always make 
improvements; but we believe we can exploit the current 
regulatory authorities within those respective agencies to 
achieve a national level of security as it relates to chemical 
security.
    Mr. Shays. How does the Coast Guard impact us here.
    Mr. Liscouski. Well, with the two citations here, both of 
these sites, both in Neville Island and in Forward Township, 
are TSA, sir.
    Mr. Shays. Maybe you gentlemen can explain it to me.
    Mr. Liscouski. I can amplify it if you like.
    Mr. Shays. I must be out of my territory. I want to know, 
we don't have Federal laws that require the chemical plants to 
do security and I'm trying to ask if this made sense, and 
you're telling me that, you know, the Coast Guard--through the 
Coast Guard we somehow are getting chemical plants to do this.
    So are you saying that they have requirements or they don't 
have requirements?
    Mr. Liscouski. No, I'm saying they do have requirements. 
The MTSA, the Maritime----
    Mr. Shays. So you disagree with the statement. You think 
our laws now require chemical plants to secure their 
facilities.
    Mr. Liscouski. Within certain parameters, sir. The Coast 
Guard has mandated vulnerability assessments based upon 
standards to be provided to them by December 2003. We're in the 
process of collecting those standards currently. So under the 
MTSA----
    Mr. Shays. That's for all chemical plants.
    Mr. Liscouski. No, those that fall within the purview of 
the MTSA, sir. That's what I was saying. This is a holistic 
approach, some of which are covered by regulations, some of 
which are covered by oversight by DHS.
    You're asking for one--I think you're asking, do we need 
one single Federal law for security risk to chemical plants.
    Mr. Shays. [Nods affirmatively.]
    Mr. Liscouski. Then I would say at this point in time, I 
think, working with the administration, I would say all things 
are on the table, but I'm not in a position to worry about 
that.
    What I'm in a position to worry about is what's the 
security currently and what are we doing to improve that, and 
I'm telling you right now we're taking a very active approach 
to it.
    Mr. Shays. I'm not trying to get you in a position where 
you're telling me what the administration has to do for policy, 
but I basically conclude you're the person in charge. The EPA 
has basically decided, fairly late, not to participate.
    I'm trying to understand, you know, who's in charge if 
anyone in terms of what kind of absolute mandates we can make 
on chemical plants and whether we should, and I've seen two 
folks locally and I'm just trying to think, you know, what 
information is being shared with them. And I know there's a 
reluctance on the part of you to overstate or even understate 
the challenge. I'd like to get something out of this hearing 
that I can go home with and say, well, we need to move in this 
direction or that direction.
    You're not giving me the opportunity to draw on your 
expertise to know whether you think that more Federal law is 
necessary, or some Federal law. You're telling me how you're 
coping and, you know, I mean, maybe that's the way we end this 
hearing, but it's not a very satisfying one from my standpoint 
in trying to learn something.
    I'm trying to understand--I mean, for instance, I'm near a 
nuclear power plant. They have to have an evacuation plan, they 
have to determine where the plume goes and the probability of 
the plume, they have to have requirements for safety, and maybe 
it's a bad comparison, maybe we just don't need it, but I think 
if we have it for nuclear plants why not for chemical?
    So I thought maybe in this hearing I'd learn that, but 
maybe I've got to ask someone else. I don't know, it's getting 
to be a bit frustrating because I feel like I'm in a game. I 
just want to know some answers.
    Gentlemen, tell me, do you have evacuation plans for 
neighborhoods around the chemical plants?
    Mr. Headley. As part of the improvements that we made at 
Vopak we came up with an evacuation plan for an accidental 
release, which obviously would apply for an intentional release 
as well, which essentially was to put in a warning siren, to 
send information to the people in the neighborhood and 
downstream to warn them that there was a problem. It's one of 
those things where you stay in place and put plastic over your 
windows and do that kind of thing until the threat dissipates.
    Beyond that, I can't comment about the regulatory or who 
has ultimate authority on these matters because I just don't 
know.
    Mr. Shays. Chief.
    Chief Full. My experience--and, again, the chemical 
facility and the Forward Township being in my county I can tell 
you that they are more the exception than the rule.
    Mr. Shays. What's more the exception than the rule.
    Chief Full. What they have accomplished, both at the 
company level and with the municipality through their efforts, 
have been nothing less than extraordinary and outstanding in 
the spirit of cooperation. However, they are only 1 of 230 
facilities I have in my county right now, and I am concerned 
about the fact that we don't have something. And, quite 
frankly, at this point in time at the local level, I don't care 
where it comes from, but there has to be something to improve 
the accountability for security of the facilities.
    As I take a look at what we've discussed here this morning, 
I'm in the business of responding to those things when they 
have occurred; and with that, we've got to ensure that it 
doesn't occur and we can't be shopping around with who's going 
to do it under one regulation, I mean, we already are mandated 
under a number of different regulations that either come out of 
EPA or FEMA or something along those lines.
    We, too, have a power plant 10 miles from here and I'm very 
familiar with what you've experienced with your power plant, 
and we have evacuation plans for our chemical facilities, as is 
required under our EPA reporting and so forth. But they have 
nothing to do--there's not one thing in there about security; 
it really doesn't even ask, do you have a site security plan? 
We have everything for consequence purposes, responding to if 
there's an emergency, but there is nothing to do with security 
at all, there's--and----
    Mr. Shays. Mr. Liscouski, why wouldn't we just give the EPA 
that same responsibility and I'll just give you the analogy 
that I have. I mean, under FEMA they have natural disasters and 
they have man-made disasters and they respond to both and they 
deal with both.
    Why would we separate that? Why wouldn't we just keep the 
EPA involved with the same--I mean, logically what is the 
argument for not doing it?
    Mr. Liscouski. I can only speak to what is, sir; I can't 
talk about the retrospective reasons as to why people made 
decisions.
    I'll just tell you that when we talk about the 
responsibility for coordinating across the national picture for 
infrastructure protection and security, it makes sense that DHS 
has the responsibility to do that, working with our Federal 
partners.
    Now, we talk about legislation and we talk about 
regulation, I think it's important to note, and we talk about 
things that have to be done at a minimum. As it relates to 
security, one of the things I'm always fearful of when people 
talk about legislation that deals with regulation is that it 
goes up to the fence line and typically deals with minimum 
standards.
    When we talk about minimums here we're often talking about 
those things which don't meet a dynamic threat environment. The 
world that we come from and the world that we all currently 
live in with respect to the September 11th--the post-September 
11th world is one in which we have a great dynamic threat.
    My fear is legislation can only move at a certain pace and 
if we require chemical companies to achieve a minimum, the 
minimums, then they will go to the minimum; and if the threat 
exceeds that minimum, are we going to wait to enact legislation 
which is going to then take them to the next level of a minimum 
standard which might respond to an evolutionary threat?
    My job is to ensure that we have robust capabilities and 
thinking going on. So to that end, irrespective of legislation 
sitting in the hopper or not, regardless of what requirements 
there are to meet regulatory requirements, we regularly work 
with the chemical sctor across the industry, associations, 
individual companies, to assess their vulnerabilities, to get 
them to work and make the investments they need to do the 
things that they need to do, and we check up with them.
    That's not requiring a legislative mandate to do that. 
We're moving out on that now, we're making improvements, and I 
can tell you right now we're exceeding anything that I've seen 
on the table yet with respect to legislation. Now, are we 
making progress to my satisfaction in terms of getting all 
4,000 sites done to the level that we need to? No. Is there 
enough money to do that right off the bat? I'm not so sure it's 
a question of money. It's a question of time. And this is an 
evolutionary problem. We have to attack it as much as we can.
    But if you want to leave this hearing satisfied, I can only 
tell you right now that we are not sitting waiting for 
legislation, good thought, to be passed by the Congress or 
anyone else before we take action. We're very aggressive about 
it. We're moving out and we're reducing vulnerabilities.
    I'd like to say we're touching all the points that we need 
to be. We can be doing a better job, but the public should not 
be thinking that DHS is waiting for guidance from anybody 
before we move out there.
    We're working hard with the industry, we're pushing them 
hard. I suspect you're going to hear on the next panel from the 
American Chemistry Council how hard we're pushing them, how 
hard we're working them, and I'm upsetting some people by doing 
that. Do I care if I upset them? No. Do I care about making 
sure we've got the right security for the United States? Yes. 
That's what I've got to answer to, sir, not about making sure 
I've got some regulation, but making sure we understand the 
vulnerabilities and that we've got the right protection 
programs.
    Mr. Shays. Our job is oversight of DHS under the law. We 
have oversight of the Department of State and the Department of 
Defense, FEMA and all the parts there.
    Our job is to look at programs to see if they're working 
well, and then part of it is to determine whether we have to 
rewrite laws. Our committee has come up with tremendous amounts 
of recommendations, some to the Department of Homeland 
Security, and in the process of hearings we learn things that 
we can then recommend. It's not your job to write the law, it's 
our job. I understand that.
    Mr. Liscouski. I agree.
    Mr. Shays. But it's our job to understand if we're doing it 
the right way and the best way. Is this the best way? We bring 
people before us to learn that.
    And so I am just wrestling right now--and I think you can 
think it's pretty logical, we have EPA, they have it for 
accidental, and yet we have testimony from two people locally 
that they have nothing now for security. And I'm wondering why 
it's better to have DHS do it than not just to have EPA just 
revise what they do to have it also under security.
    And that's what I'm wrestling with, and I'm not trying to 
play a game with you or anybody else, I'm asking a logical 
question and I'm hearing your answer saying, well, we're doing 
the best we're doing, we're not waiting.
    What I wanted to know is what is the logic of not having 
EPA do it. Tell me that, please. Is there logic or is it just a 
value judgment?
    Mr. Liscouski. No, I believe there's logic for this for the 
same reason the Transportation Security Administration was 
formed from the likes of FAA and where there was a security 
component beforehand.
    I think there is some recognition that there is a 
difference between safety and security, that safety provides a 
good foundation for security programs, but security has to be 
within the responsibility of an organization whose mandate and 
primary focus is security for the United States. That's DHS.
    Mr. Shays. So your point about transportation--and then I'm 
done--is what? I'm missing your point. You're speaking too 
quickly for me.
    Mr. Liscouski. Sorry.
    Mr. Shays. What's your point about Department of 
Transportation? The analogy to what to what.
    Mr. Liscouski. Well, prior to September 11th, the 
Department of Transportation did have airline security within 
its mandate. And then subsequent to September 11 the 
Transportation Security Administration was formed to ensure 
that we had an even greater focus, and that focus was then 
transferred to----
    Mr. Shays. We took Coast Guard from Transportation and we 
moved it to DHS, I understand that. I'm not suggesting we take 
EPA and give it to you. But the question is, are we now doing 
two separate things? They're both dealing with security, that 
one is dealing with national and you dealing with man-made 
causes, and I am just wondering why. That's what I'm wrestling 
with.
    We didn't do it in other areas. We haven't brought FEMA in, 
and FEMA does both. And I don't understand why we're separating 
it. That's what I'm trying to understand. If you don't know the 
answer to it then that's fine.
    Mr. Liscouski. Perhaps I'm not being clear. I think I do 
know that answer. The FEMA responsibility, which is now 
Emergency Preparedness and Response, is not a security 
responsibility but a preparedness and response capability.
    The security responsibilities we have in the DHS are across 
a number of different elements. The safety responsibility for 
EP&A remains at EP&A. EP&A really never had a very robust 
security capability. We're trying new security programs based 
upon solely safety forces.
    The industry--the government would obviously serve in terms 
of what the Homeland Security Act provided for--felt that DHS 
was the appropriate place for a nexus for security as it 
relates to all of our critical infrastructure and specifically 
to the chemical sector.
    So I think the answer is there, perhaps I'm just not 
articulating it correctly and I apologize for that, but I'd be 
happy to spend more time with you trying to get clarity on it.
    Mr. Shays. The Department of Homeland Security legislation 
emanated from this committee. We had the very first hearing on 
it and I understand the genesis of the legislation. I still for 
the life of me don't understand why EPA is not more involved in 
the security side and that's what I don't understand.
    I don't understand why these gentlemen know that they have 
emergency plans when it relates to natural causes, but somehow 
they don't have it for man-made problems. I don't for the life 
of me understand that and I know you're trying to answer, but I 
don't understand.
    Thank you, Mr. Chairman.
    Mr. Murphy. Mr. Shays.
    We will move on to the next panel now. I thank you for your 
testimony, I appreciate it very much.
    Mr. Liscouski. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Murphy. All right. We'll continue now with our hearing 
and ask that the people about to give testimony please rise and 
be sworn.
    [Witnesses sworn.]
    Mr. Murphy. I note for the record that the witnesses 
responded in the affirmative.
    I'd like to introduce our panel, the second panel, for 
witnesses. These include Mr. John Stephenson, Director of 
National Resources and Environment for the U.S. General 
Accounting Office; Ms. Pamela Witmer, president of the 
Pennsylvania Chemical Industry Council; Mr. Marty Durbin, team 
leader for security and operations and senior director of 
Federal relations for the American Chemistry Council; and we 
have Ms. Jennifer C. Gibson, vice president of government & 
public affairs, National Association of Chemical Distributors.
    I welcome all the witnesses today to this hearing and I 
guess we'll begin with Mr. Stephenson, your testimony. Each 
person will get----
    Mr. Shays. Five minutes.
    Mr. Murphy [continuing]. Five minutes and we'll roll over 
if we need to do that.
    Mr. Stephenson.

 STATEMENTS OF JOHN STEPHENSON, DIRECTOR OF NATIONAL RESOURCES 
AND ENVIRONMENT FOR THE U.S. GENERAL ACCOUNTING OFFICE; PAMELA 
    WITMER, PRESIDENT OF THE PENNSYLVANIA CHEMICAL INDUSTRY 
COUNCIL; MARTY DURBIN, TEAM LEADER FOR SECURITY AND OPEERATIONS 
   AND SENIOR DIRECTOR OF FEDERAL RELATIONS FOR THE AMERICAN 
 CHEMISTRY COUNCIL; AND JENNIFER C. GIBSON, VICE PRESIDENT OF 
GOVERNMENT AND PUBLIC AFFAIRS, NATIONAL ASSOCIATION OF CHEMICAL 
                          DISTRIBUTORS

    Mr. Stephenson. Thank you, Mr. Chairman. Thank you for the 
opportunity to discuss our work on the security of the Nation's 
chemical facilities and the recommendations that we made to 
address this issue over a year ago in our March 2003 report.
    As the events of September 11, 2001 showed, terrorists can 
cause enormous damage to our country by attacking 
infrastructure essential to our economy and jeopardizing public 
health and safety. Following these events, the President, in 
the National Strategy for Homeland Security, identified the 
chemical industry as 1 of 13 sectors critical to the Nation's 
infrastructure. Across the Nation, literally thousands of 
industrial facilities manufacture, use, or store hazardous 
chemicals in quantities that could potentially put large 
numbers of Americans at risk in the event of a chemical 
release.
    The Federal Government's role in protecting chemical 
facilities from terrorist attacks has been much debated since 
September 11. Initially EPA had the lead responsibility for 
chemical security, but it has now been shifted to the new 
Department of Homeland Security, as you just heard. Public 
debate has centered on whether the Federal Government should 
impose security requirements on chemical facilities or whether 
voluntary industry actions alone are sufficient.
    Let me briefly summarize the findings in our report. First, 
most experts agree that the Nation's chemical facilities are 
indeed attractive targets for terrorists intent on causing 
massive damage. The risk of an attack varies among facilities 
and upon several factors including the types of chemicals they 
use and their proximity to populated areas.
    According to EPA data on accidental toxic release worst-
case scenarios, as you heard, 123 chemical facilities located 
throughout the Nation could each potentially expose more than 1 
million people in the surrounding area if a toxic release 
occurred, and another 700 facilities could each threaten at 
least 100,000 people.
    Now, there's a chart in the back of our testimony that kind 
of in part explains the difference between those numbers and 
the 4,000 that DHS was talking about.
    Numerous studies and media accounts of reporters gaining 
access to facilities indicates that the vulnerabilities are 
very real. Just a few months ago, as was already mentioned once 
here, the Pittsburgh Tribune Review did an expose on the 
vulnerability of such facilities in this area that CBS later 
used in a broader 60 Minutes piece on chemical plant security.
    Despite the obvious risk, no Federal laws as yet explicitly 
require that all chemical facilities assess vulnerabilities or 
take security action to safeguard them from an attack. While 
some facilities must take action under recent legislation 
covering water treatment plants, part of those 15,000, or 
plants near ports, which is about 300 of those 15,000, no 
Federal regulation right now requires that all of them be 
assessed.
    Furthermore, well over 2 years after the events of 
September 11 the Federal Government is still not 
comprehensive--has still not comprehensively assessed the 
chemical industry's vulnerability to terrorist attacks. EPA, 
the Department of Homeland Security, and the Department of 
Justice have each taken preliminary steps to assist the 
industry in its preparedness efforts, but no agency monitors or 
documents the extent to which chemical facilities have 
implemented security measures. Consequently, Federal, State and 
local entities in general lack information on preparedness.
    To their credit chemical manufacturing industry 
associations have taken a number of voluntary initiatives to 
address security at their member facilities. For example, the 
American Chemistry Council, represented on this panel, requires 
its members to follow its responsible care approach and 
preparedness. ACC's efforts are commendable, but its members, 
while some of the Nation's biggest chemical companies, include 
less than 1,000 of the approximately 15,000 facilities the EPA 
estimates manufacture or store dangerous chemicals.
    Relying on voluntary efforts alone without Federal 
oversight or third-party verification may not be sufficient to 
address the considerable threat. Indeed, relying on voluntary 
efforts alone raises serious concerns, and the extent the 
facilities are participating in such efforts is at this point 
unclear.
    In light of the gravity of a potential threat and the 
obvious challenges facing the industry in addressing it, we 
recommended a year ago that the Department of Homeland Security 
and EPA jointly develop a comprehensive national strategy that, 
one, identifies high-risk facilities and collects information 
on preparedness--that sounds like that's partially being done 
according to the DHS witness; two, further specify the roles 
and responsibilities for addressing the threat; three, 
establish appropriate information sharing mechanisms; and, 
four, develop legislative proposals to require chemical 
facilities to expeditiously assess their vulnerability and, 
when necessary, make corrective actions.
    Legislation is now working its way through the Congress 
that, if enacted, and I haven't seen the latest draft of this 
legislation, but would direct DHS and EPA to in part adopt most 
of these recommendations.
    Mr. Chairman, that concludes the summary to my statement 
and I'll be happy to respond to questions at any time.
    Mr. Murphy. Thank you, Mr. Stephenson.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.013
    
    [GRAPHIC] [TIFF OMITTED] T4257.014
    
    [GRAPHIC] [TIFF OMITTED] T4257.015
    
    [GRAPHIC] [TIFF OMITTED] T4257.016
    
    [GRAPHIC] [TIFF OMITTED] T4257.017
    
    [GRAPHIC] [TIFF OMITTED] T4257.018
    
    [GRAPHIC] [TIFF OMITTED] T4257.019
    
    [GRAPHIC] [TIFF OMITTED] T4257.020
    
    [GRAPHIC] [TIFF OMITTED] T4257.021
    
    [GRAPHIC] [TIFF OMITTED] T4257.022
    
    [GRAPHIC] [TIFF OMITTED] T4257.023
    
    [GRAPHIC] [TIFF OMITTED] T4257.024
    
    [GRAPHIC] [TIFF OMITTED] T4257.025
    
    [GRAPHIC] [TIFF OMITTED] T4257.026
    
    [GRAPHIC] [TIFF OMITTED] T4257.027
    
    [GRAPHIC] [TIFF OMITTED] T4257.028
    
    [GRAPHIC] [TIFF OMITTED] T4257.029
    
    [GRAPHIC] [TIFF OMITTED] T4257.030
    
    [GRAPHIC] [TIFF OMITTED] T4257.031
    
    Mr. Murphy. Ms. Witmer.
    Ms. Witmer. Good morning, Mr. Chairman and members of the 
House Subcommittee on National Security, Emerging Threats and 
International Relations. As Congressman Murphy indicated, my 
name is Pam Witmer and I am president of the Pennsylvania 
Chemical Industry Council. PCIC represents over 70 companies 
involved in the manufacture, distribution, and use of chemicals 
along with those companies that support our industry.
    Pennsylvania's business of chemistry is an approximately 
$27 billion a year industry employing almost 62,000 
Pennsylvanians. These jobs represent over 8 percent of the 
Commonwealth's entire manufacturing work force, a work force 
that takes home on average over $68,000 a year.
    I'm pleased to appear before you today to discuss the 
efforts that have been undertaken post September 11 by those 
involved in Pennsylvania's chemical industry. We are committed 
to work in partnership with Federal, State and local 
governments to further ensure the security of materials that 
are used to make everyday products like Kevlar for bulletproof 
vests for our military and law enforcement, water purification 
systems, bicycle helmets for our children, siding and 
insulation for our homes and lifesaving medicines. Hazardous 
materials are used to make the products that drive our economy 
and contribute to our well-being. It is equally important to 
understand that of the hazardous materials manufactured and 
transported, only a small portion of them would be considered 
attractive to a would-be terrorist.
    The chemical industry has long taken security seriously. In 
this ``just in time'' culture it's imperative that materials 
are moved from manufacturer to customer in a timely, efficient, 
cost-effective and secure manner. As well, the industry has 
made it a priority to establish a good working relationship 
with members of the local first-response community.
    I think the key word used to describe the industry's 
security efforts to date is ``proactive.'' Efforts to further 
enhance security through formal industrywide guidelines were 
undertaken immediately following the tragic events of September 
11th. Shortly following 9/11, industry had developed, 
distributed and began training on the use of the Site Security 
Guidelines for the Chemical Industry. These guidelines were 
followed by the more comprehensive American Chemistry Council 
Responsible Care Security Code. These documents were developed 
jointly by the American Chemistry Council, CHEMTREC, the 
Chlorine Institute, the Synthetic Organic Chemical 
Manufacturers Association, and subsequently supported by many 
other chemical industry associations including the Pennsylvania 
Chemical Industry Council.
    PCIC supports efforts to pass Federal legislation that 
would place authority for establishing national standards for 
chemical site security and overseeing their implementation with 
the Department of Homeland Security. PCIC also suggests that 
such Federal legislation recognize the ACC Responsible Care 
Security Code as an acceptable security standard. PCIC does not 
support individual States acting on their own in absence of 
Federal legislation.
    From PCIC's perspective there are three themes essential to 
the successful development and implementation of a security 
plan: use of sound science and actual risk posed, outreach and 
training.
    Sound science and actual risk. The Site Security Guidelines 
and the more recent Security Code represent a risk-based 
approach to identify, assess and address vulnerabilities, 
prevent or mitigate incidents, enhance training and response 
capabilities and maintain and improve relationships with key 
stakeholders. The Guidelines and Security Code were written 
specifically for those who have responsibility for the safe and 
secure management and distribution of their products and raw 
materials. The Responsible Care Security Code outlines a tiered 
risk-based approach to identifying vulnerabilities and 
implementing security programs and practices that managers can 
consider and tailor to a company's specific situation as 
identified in vulnerability assessment. The two documents offer 
flexibility to design a program according to the chemical being 
used and the actual risk posed.
    Some of the more obvious strategies being employed include 
changing the direction trucks enter a facility, use of employee 
identification cards, background checks for employees and 
contractors, additional surveillance in the forms of obvious 
cameras as well as placement of more covert cameras, additional 
fencing, more security guards, etc.
    As I mentioned, these are some of the obvious methods 
employed to better secure the sites that manufacture, store, 
use and distribute hazardous materials. Actual security plans 
are, of course, confidential and, on the advice of law 
enforcement, not discussed.
    The second element of a successful security plan is 
outreach and information sharing. Hazardous materials security 
is a shared responsibility. It is not just the job of 
government agencies, law enforcement or a particular industry 
sector. It is all of these groups working together that would 
provide the best opportunity to prevent or respond 
appropriately to an act of terrorism, international or 
domestic.
    Information sharing is a critical element for effective 
security. Along with understanding the real risk posed by a 
particular chemical, being provided with accurate information 
can trigger heightened or tightened security.
    This shared responsibility extends to those involved in the 
manufacture and distribution of chemicals. A number of 
initiatives have been established that do enable government 
agencies, law enforcement, and various industry sectors to 
interact on information sharing. Some of these efforts include 
the Chemical Sector Sharing and Analysis Center. In April 2002, 
ACC and the National Infrastructure Protection Center, which 
was then part of the FBI, signed a formal agreement 
establishing a communications network that operates 24 hours a 
day to provide an exchange of security and threat information 
between the Federal Government, the chemical manufacturers, 
carriers and distributors. PCIC is also a subscriber of the 
Chemical Sector ISAC to ensure that chemical manufacturers and 
distributors not affiliated with ACC are provided with the 
latest security and threat information.
    Some of the other advances in information sharing include 
the Railroad Alert Network, the Surface Transportation 
Information Sharing and Analysis Center, the Chemical 
Transportation Emergency Center and the Association of American 
Railroads and the American Chemistry Council Security Task 
Force.
    As you can see, much has been done in the way of providing 
better access to information. However, there still exists a 
reluctance to pass along critical intelligence because of the 
sensitive nature of the intelligence or its source. 
Consideration should be given by the Federal Department of 
Homeland Security to developing a process that would provide 
top security clearance for certain chief security executives 
within companies, as many of these individuals come from the 
intelligence or law enforcement community.
    The third theme of all hazardous materials security 
efforts, training, is essential. PCIC member companies 
participate in drills to determine whether or not the plan is 
effective, sharpen skills and responses and to determine what 
needs to be done better.
    An example of a cooperative training effort that took place 
this past November was the national level terrorism-related 
preparedness drill involving the U.S. Coast Guard, the FBI, 
PCIC member company ConocoPhillips and State and local law 
enforcement agencies for Pennsylvania and New Jersey. This 
particular training exercise utilized a scenario involving a 
simulated terrorism-induced oil spill in the Delaware River to 
test the Unified Command's capability to respond to a breach in 
port security while at the same time containing and responding 
to a major oil spill.
    PCIC and many of our member companies also voluntarily 
participate in and support a national organization called 
TransCAER, which stands for Transportation Community Awareness 
Emergency Response. Pennsylvania TransCAER is a unique 
organization that counts among its members the Federal 
Environmental Protection Agency, the Federal Emergency 
Management Agency, the Pennsylvania Emergency Management 
Agency, the Pennsylvania Department of Transportation and the 
Keystone Emergency Management Association, in addition to 
chemical manufacturers, distributors and hazardous materials 
cleanup companies. Pennsylvania TransCAER, an award-winning 
affiliate of the national TransCAER organization, has as its 
mission, outreach and training to communities in which our 
facilities are located and through which our materials are 
transported.
    Pennsylvania TransCAER has just completed its second 
consecutive year of providing free hazardous materials incident 
response training to county and local first responders. This 
unique training utilizes actual scenes from within the county 
in which the training is being held, allows first responders to 
role play all elements of a hazardous materials transportation 
incident, from the initial call reporting the incident, to 
managing the incident, to cleanup, to reporting relevant 
information to medical and hospital personnel, to working with 
the media.
    I am pleased to announce this voluntary effort will be 
offered free to an additional seven Pennsylvania counties in 
2004. Allegheny County was one of the first counties to be 
offered this free training in 2002 and neighboring Beaver 
County participated in the Pennsylvania TransCAER training 
event in 2003.
    On a more local level, many employees of PCIC member 
companies are active participants in their county's Terrorism 
Task Force. They are volunteer firefighters or emergency 
medical technicians. As well, some of our member companies have 
agreements with their local emergency planning coordinator that 
allow the company's hazardous materials response team to go 
offsite and assist in a hazardous materials emergency.
    This unprecedented information sharing, outreach and 
training is taking place not just between law enforcement and 
industry, but also with other Federal and State agencies. An 
example of this cooperation on a national level is the 
industry's participation in a Federal Department of 
Transportation study that is currently underway to field test 
various new technologies that may be beneficial for tracking 
shipments of hazardous materials under a variety of scenarios. 
PCIC is a member of the security discussion group created by 
Pennsylvania's Homeland Security Director, Keith Martin.
    As you can see, the manufacturer and distribution of 
hazardous materials is more secure today than it was last year 
and certainly more secure than it was 5 or 10 years ago.
    This does not mean that we are done nor does it mean that 
there will never be a successful terrorist attack. It does mean 
that we recognize our responsibility to try and secure our 
employees and communities through which our materials are 
transported and manufactured.
    A number of positive and proactive voluntary initiatives 
have already been taken to develop more secure movement of 
hazardous materials. Research will continue looking for better 
ways to improve approaches to security that are based on sound 
science and developed on the basis of actual risk. But society 
as a whole faces the problem that in response to all types of 
threats, terrorism, natural disasters, etc., in general there 
is no such thing as zero risk. Whether it's airports, water 
treatment plants, high-rise buildings or hazardous materials, 
we must all realize there are real costs to every person for 
each effort made to reduce the likelihood of risks negatively 
impacting us.
    I realize I went way over my time, but thank you and 
whenever it's appropriate I'll answer questions.
    Mr. Murphy. Thank you.
    [The prepared statement of Ms. Witmer follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.032
    
    [GRAPHIC] [TIFF OMITTED] T4257.033
    
    [GRAPHIC] [TIFF OMITTED] T4257.034
    
    [GRAPHIC] [TIFF OMITTED] T4257.035
    
    [GRAPHIC] [TIFF OMITTED] T4257.036
    
    Mr. Murphy. Mr. Durbin.
    Mr. Durbin. Good morning. Again, my name is Marty Durbin 
and on behalf of the members of the American Chemistry Council 
I certainly appreciate the opportunity to address security in 
the business of chemistry, a critical sector of America's 
infrastructure.
    ACC represents 140 of the leading companies in the U.S. 
Chemical manufacturing industry. It's an industry with the 
largest exporting sector in our economy directly employing a 
million people and is the largest private industry investor in 
research and development. Products we manufacture are essential 
to our modern lives, from plastics to pharmaceuticals, from 
cars to clothing, and they keep our drinking water safe, 
support agriculture and spur medical invasions that prevent and 
treat disease.
    Now, you've asked that we address voluntary actions the 
chemical industry has taken to address security and assess the 
Federal Government's roles and programs in this area. I welcome 
the opportunity to highlight three specific areas. One is the 
leadership role that I believe ACC members have taken with 
regard to security to further ensure the security and safety of 
their products facilities and the communities in which they 
operate; and, second, the strides the Federal Government has 
made in the last year in this area; and, third, the remaining 
challenges and where we need to go from here.
    As has been mentioned several times, safety and security 
have been primary concerns of this industry since long before 
September 11th; however, those attacks forced every part of 
America's critical infrastructure to reevaluate security 
preparedness. Our members didn't wait for government direction. 
Building on the ethic of stewardship embodied in our trademark 
Responsible Care Program now in it's 16th year, our members 
acted swiftly, adopting an aggressive plan to further enhance 
security, and that is the ACC Responsible Care Security Code.
    Through the code, ACC members are making serious 
commitments and significant investments. Implementation of the 
code, which addresses site, cyber and transportation security 
is mandatory for all members. Regarding facilities 
specifically, the code requires that for every facility in all 
four categories, a rigorous security vulnerability assessment 
be conducted, security enhancements are implemented, and that a 
third party verify that those enhancements have indeed taken 
place.
    The code emphasizes that security is a shared 
responsibility requiring actions by others in order to be 
effective. That includes suppliers and customers as well as 
government agencies, first responders law enforcement and 
everyone else we've been speaking about this morning.
    The ACC Security Code has been called a model program by 
Secretary Ridge, and, as Mr. Stephenson mentioned, in the GAO 
report last year it was commended. More recently the Code was 
recognized by the U.S. Coast Guard, by the State of New Jersey, 
and by the city of Baltimore as essentially a best practice for 
chemical security. I'd be happy to go into more detail on that 
during the question period.
    ACC's efforts, of course, extend far beyond the boundaries 
of just our facilities. We understand that effective response 
systems are key to safety and security and, as such, we have 
longstanding public service programs such as CHEMTREC, which we 
mentioned earlier, a 24-hour emergency response center that has 
now been a public service of the American Chemistry Council for 
over 30 years, and the TransCAER program, again, as Ms. Witmer 
discussed.
    The GAO report last year said that ACC's efforts were 
commendable, but we have not been content to rest on our 
laurels. Our members have continued to push themselves to 
strengthen our partnerships with law enforcement, first 
responders as well as local, State and Federal Government, and 
to meet the ambitious timetable of our security code. I'm 
pleased to report that our members are meeting their timetable. 
Every member facility has completed a vulnerability assessment 
and with many enhancements already in place we're on a path to 
full implementation of security enhancements by the end of this 
year.
    Now, second, regarding the Federal Government and its role, 
We've been working very closely with the Department of Homeland 
Security during its first year of existence. We concurred with 
GAO's recommendations last year that the Federal Government 
should develop a comprehensive national chemical security 
strategy that's both practical and cost effective and that 
would focus in the following four areas.
    First, identifying high-risk facilities. Now, I can tell 
you that starting in March of last year DHS partnered with ACC 
and Mr. Liscouski mentioned much of that in his testimony. 
Today DHS and the Coast Guard are actively visiting chemical 
facilities and working in conjunction with local law 
enforcement and responders to protect facilities and their 
communities.
    In addition it's worth noting that U.S. Customs has 
developed the Customs Trade Partnership Against Terrorism 
program [CTPAT], to help identify potentially vulnerable or 
suspect shipments and works with manufacturers and shippers 
through the value chain, both foreign and domestic, to secure 
global trade.
    Second, GAO identified the need to specify the roles and 
responsibilities of Federal agencies. Since their report was 
published, and as has already been mentioned, the President 
signed a Presidential Directive in December that more clearly 
defines security roles of various Federal agencies and 
specifically names DHS as the lead agency for the chemical 
sector.
    Third was the need to develop appropriate information 
sharing mechanisms. As has been mentioned, the FBI through the 
National Infrastructure Protection Center contacted ACC shortly 
after September 11th and asked that we sponsor and host the 
chemical sector ISAC and through our CHEMTREC program we 
provide that 24/7 capability for a direct two-way communication 
between DHS and our sector to hundreds of participants 
representing not only our members but other segments of the 
chemical sector as well.
    I would also note that while the national terrorist threat 
level was at orange during December and January, DHS 
established daily contact with ACC and its member companies to 
maintain a clear understanding of threats and countermeasures 
that were taken.
    Finally, GAO recommended developing a legislative proposal, 
and here I want to be very clear that the members of ACC fully 
recognize that strengthening safety and security and having 
Federal oversight at our facilities is in the best interest of 
our plant communities, our companies and our Nation.
    As such, ACC supports chemical security legislation that 
will establish national guidelines for security at chemical 
facilities, require facilities to conduct vulnerability 
assessments and implement security plans, provide oversight and 
inspection authority to the Department of Homeland Security and 
create strong enforcement authority.
    Now, we've been very pleased with the constructive 
relationships we're developing with our Federal partners to 
address the security in the chemical sector, and frankly 
Assistant Secretary Liscouski is to be commended for the focus 
that he personally has brought to this effort; however, I will 
confirm what he's telling you, that he is certainly going to 
great lengths to push our members in our industry to do even 
more than they are to help develop and establish what this 
higher level of sustainable security is at our member 
companies. But we look forward to working with our government 
partners to continuously enhance security of our products, our 
facilities, our employees and our communities.
    Although much has been done there are areas in which we 
must continue to focus our attention, and they include improved 
public/private intelligence sharing regarding threats and 
vulnerabilities, coordinated training activities, improved 
coordination of chemical security initiatives within DHS and 
all of its various agencies, and agreement on other security 
needs of the chemical sector. And I'm pleased to say the dialog 
in all of these areas is underway.
    In conclusion, I want to say that security is a 
responsibility shared by industry and government. ACC members 
will continue to step up to their security responsibilities; 
however, we know we can't do this alone.
    Our members have already invested hundreds of millions of 
dollars to further enhance security, but unilateral security 
investment by the private sector is not enough.
    ACC members will continue to work with law enforcement, 
first responders and government partners to ensure the security 
of our essential products and contributions this industry 
provides to our country. We demonstrated our commitment and 
willingness to step up to this challenge, but we cannot 
shoulder the burden alone. We need to embrace a more 
comprehensive and more integrated partnership with our public 
sector colleagues. Frankly, security is just not an option for 
the members of the American Chemistry Council.
    Thank you, again. I'm happy to answer your questions at the 
appropriate time.
    Thank you, Mr. Durbin.
    [The prepared statement of Mr. Durbin follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.037
    
    [GRAPHIC] [TIFF OMITTED] T4257.038
    
    [GRAPHIC] [TIFF OMITTED] T4257.039
    
    [GRAPHIC] [TIFF OMITTED] T4257.040
    
    [GRAPHIC] [TIFF OMITTED] T4257.041
    
    [GRAPHIC] [TIFF OMITTED] T4257.042
    
    [GRAPHIC] [TIFF OMITTED] T4257.043
    
    [GRAPHIC] [TIFF OMITTED] T4257.044
    
    [GRAPHIC] [TIFF OMITTED] T4257.045
    
    [GRAPHIC] [TIFF OMITTED] T4257.046
    
    [GRAPHIC] [TIFF OMITTED] T4257.047
    
    [GRAPHIC] [TIFF OMITTED] T4257.048
    
    [GRAPHIC] [TIFF OMITTED] T4257.049
    
    [GRAPHIC] [TIFF OMITTED] T4257.050
    
    [GRAPHIC] [TIFF OMITTED] T4257.051
    
    [GRAPHIC] [TIFF OMITTED] T4257.052
    
    [GRAPHIC] [TIFF OMITTED] T4257.053
    
    [GRAPHIC] [TIFF OMITTED] T4257.054
    
    [GRAPHIC] [TIFF OMITTED] T4257.055
    
    Mr. Murphy. Ms. Gibson.
    Ms. Gibson. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Jennifer Gibson and I am the vice 
president of government and public affairs at the National 
Association of Chemical Distributors.
    NACD's 300 member companies represent between 80 and 90 
percent of the chemical distribution facilities in the United 
States. NACD members process, repackage, warehouse, transport 
and market chemical products for an industrial customer base of 
750,000. Approximately 18 billion of U.S. chemical industry 
sales are through distributors.
    To become and remain a member of NACD chemical 
distribution, companies must take title to product and adhere 
to management practices related to health, safety, security and 
the environment as outlined in the association's Responsible 
Distribution Process [RDP].
    Since well before September 11, 2001 NACD members have 
adhered to the policies and procedures outlined by the 
Responsible Distribution Process. These requirements have 
always called for security and risk management considerations 
within and outside each facility. Members are also required to 
complete two stages of independent third-party verification of 
their RDP policies and procedures including an onsite 
independent verification once every 3 years. Companies who are 
found to be out of compliance by the third-party verifier are 
terminated from NACD membership; therefore, security is not a 
new issue for chemical distributors.
    NACD as the leading association of chemical distributors 
was the first industry association to adopt new additional 
practices addressing security following September 11. In April 
2002 NACD added security requirements to RDP within key 
distribution operations, specifically in the handling and 
storage of chemical products at facilities, in carrier 
selection for distributing chemical products and in customer 
qualifications for chemical products of concern to various 
Federal agencies. NACD's RDP verification is now underway to 
confirm implementation of these new security requirements at 
sites and we expect all of these verifications to be complete 
by the end of next year.
    Regarding the current Federal programs addressing security 
at chemical facilities, we think the Federal Government has 
gotten off to a very good start. NACD also supports Federal 
legislation that would mandate vulnerability assessments for 
chemical facilities and recognize the management practices 
already in place that provide for enhanced security of chemical 
manufacturing and distribution.
    We would also like to see DHS develop a vulnerability 
assessment model for chemical distribution facilities, as it 
did for the chemical manufacturing sector. We have five 
programs underway to close potential loopholes that could allow 
commercial HAZMAT transport drivers with felony records to 
obtain positions at chemical distribution facilities 
unbeknownst to their employers. The plan is to fingerprint all 
commercial driver's license holders with HAZMAT endorsements is 
a positive step. We strongly encourage the subcommittee to urge 
TSA and DHS to utilize the successful fingerprinting program 
already in place for airport and aviation personnel. The 
hazardous materials truck driver population is more than double 
the size of the aviation personnel that require fingerprinting. 
We urge the subcommittee to insist that Congress and the 
executive branch consult with the American Association of 
Airport Executives that designed, implemented and operated the 
aviation clearinghouse to ensure that there will be no 
interruptions to the interstate transportation of chemicals 
because of the inability to process HAZMAT driver fingerprints. 
This program was originally scheduled to go into effect late 
last year and now the effective date will be April 1st of this 
year.
    In the event of a catastrophic occurrence at a chemical 
distribution facility, Federal agencies should work 
collaboratively with first responders, industry and incident 
response agencies. It is important that Federal agencies work 
side by side with as many stakeholders as necessary to respond 
to any catastrophic event should it occur. Existing emergency 
response networks that are well-established and widely used by 
industry, namely CHEMTREC, play a vital role in crisis and 
incident management.
    Third, the only shortcoming we perceived in the area of 
Federal support of local and State emergency response 
activities is a lack of regular communication in some cases 
and, therefore, the possibility of uncoordinated activities. 
The Federal Government should continue to take a leadership 
position in directing more formalized and regular communication 
among federally supported local and State emergency response 
personnel as well as individuals with similar responsibilities 
at chemical facilities. We greatly applaud the government's 
development of the Information Sharing and Analysis Centers 
that includes the chemical sector as one of several with which 
it collaborates and shares information on related security 
issues.
    Thank you for the opportunity to address the subcommittee 
today. I will be happy to answer any questions.
    Mr. Murphy. Thank you.
    [The prepared statement of Ms. Gibson follows:]

    [GRAPHIC] [TIFF OMITTED] T4257.056
    
    [GRAPHIC] [TIFF OMITTED] T4257.057
    
    [GRAPHIC] [TIFF OMITTED] T4257.058
    
    [GRAPHIC] [TIFF OMITTED] T4257.059
    
    [GRAPHIC] [TIFF OMITTED] T4257.060
    
    [GRAPHIC] [TIFF OMITTED] T4257.061
    
    [GRAPHIC] [TIFF OMITTED] T4257.062
    
    Mr. Murphy. I want to thank all the witnesses.
    Mr. Stephenson, I'd like to start off with a question for 
you. In your report you write on page 6 of it, it says, ``In 
testimony on February 6, 2002 the Director of the Central 
Intelligence Agency warned of the potential for an attack by al 
Queda on chemical facilities.''
    Without getting too much into intelligence on that, what 
actions have been taken, voluntary actions from the chemical 
industry? In your analysis are we at the same risk, elevated 
risk, or low risk based upon some of the actions we have heard 
today?
    Mr. Stephenson. Unfortunately, we haven't done any updates 
to our work in the last year, but voluntary actions by industry 
have gone a long way toward reducing the risk, I would say.
    Unfortunately, organizations like ACC only represent a 
small portion of the facilities that store or use hazardous 
chemicals. In addition, we at GAO are satisfied that there is 
still no Federal requirements that mandates vulnerability 
assessments across the board to all facilities who use 
hazardous chemicals.
    Mr. Murphy. Let me followup with that so that I understand 
the association. The American Chemistry Council did an 
assessment of 15,000 facilities.
    Mr. Durbin. That's correct.
    Mr. Murphy. Now, I list some of the other associations, the 
National Association of Chemical Distributors, and then there 
are manufacturing associations, but according to the American 
Institute of Chemical Engineers, American Petroleum Institute, 
State association, etc., when you add all these associations 
together, two things: one, how close are we to having all 
15,000 plants and distributors involved in this; and, two, do 
all these associations adhere to the same security guidelines 
identified by the ACC?
    Mr. Durbin. I will try to answer that. If you look at the 
population of the 15,000 communities, you know, again, ACC or 
chemical manufacturing is only about 7 percent, you add the 
others that you mentioned, you certainly do start to add up--
add to that number. However, if you look at the vast numbers, 
the larger numbers, you're looking at water treatment and 
drinking water facilities, agriculture retailer facilities, 
refrigeration warehouses that use ammonia for their 
refrigeration.
    So, again, you're still not--even if you mention all the--
take all the ones you mentioned, you're not coming close to 
getting to the majority of facilities that would fall under 
that 15,000.
    Mr. Murphy. Now, how much has been--in terms of the 
compliance issues, do we know how much money has been invested 
so far and what will it take for all the plants to be in 
compliance with just the standards that you have said? Any idea 
what we're talking about?
    Mr. Durbin. Again, just speaking for the ACC members, we 
don't have a definite number yet, we're actually doing some 
economic surveys with the membership. And I will just qualify 
that over the last year the investments are now being made.
    What I can tell you and what we do know is that the number 
at this point is literally over $100 million and into the 
hundreds of millions of dollars that have been invested. Again, 
on average right now it appears that there has been at least $2 
million per company that has been spent. You know, membership 
of 140 companies, you're ranging in size from very large to 
very small; but, again, we are talking literally over hundreds 
of millions of dollars that have been spent already.
    Mr. Murphy. And, Ms. Gibson, I think in your testimony 
regarding the National Association of Chemical Distributors, I 
think you mentioned that plants or distributors have been given 
a couple chances to comply.
    Ms. Gibson. Right.
    Mr. Murphy. By the third time, third strike they're out.
    What enforcement abilities do you have on a national level 
or State level with regard to if plants and distributors do not 
reach their security guidelines that you have set on a 
voluntary basis, what can you do besides kick them out of the 
association?
    Ms. Gibson. That's our measure that we can take to get them 
to comply, and if they don't, well, they're out. And that's why 
we support Federal measures to require these measures.
    Mr. Murphy. Are there such things as the association 
working, for example, that those who may purchase products made 
by these plants or distributed by the distributors that--to 
discourage people from purchasing from plants that are not in 
compliance? That's a big financial aspect added to it.
    Ms. Gibson. Right. Exactly. Yeah, to be a member of NACD 
everyone has their NACD logo, Responsible Submission Process 
logo, and purchasers know that these products have gone through 
Responsible Submission Process, so that is a good economic 
incentive.
    Mr. Murphy. So, for example, if your company is 
distributing chemicals manufactured by other associations going 
through the States, does word go out that XYZ Co. is not in 
compliance, and therefore other plants and distributors are 
given some sort of warning not to purchase from them? Does it 
go that far?
    Mr. Durbin. If I may, I'm not an attorney, but I believe 
you start to get into problems of antitrust concerns if you 
have members of an association starting to single out a 
particular company for any reason to say do or do not purchase 
from that company.
    Mr. Murphy. So then this just goes----
    Ms. Witmer, do you want to add something to that?
    Ms. Witmer. I was just going to follow that up that we, in 
fact, follow very strict antitrust rules and that whenever 
there's a gathering of association members, our legal counsel 
reminds them, you know, that they are not, in fact, to talk 
about those kinds of activities for, you know, fear that we 
would be in violation of the antitrust.
    And that is why, as Ms. Gibson pointed out, we are so 
strongly in favor of Federal legislation, so that there is one 
national standard and then perhaps maybe a reporting mechanism 
as well.
    Mr. Murphy. So the bottom line, in absence of Federal 
standards requiring this, there's no enforcement capability 
that any of your associations can foster, even within your 
association, other than kicking them out?
    Ms. Witmer. Not from a legal perspective.
    Ms. Gibson. Right.
    Mr. Murphy. Let me ask you another thing, too. How long 
before the highest-risk facilities are brought up to a standard 
that your agencies have set? Are we at that level yet, the 
highest-risk facilities?
    Mr. Durbin. Again, speaking for the ACC facilities, they 
were broken into four tiers; the tier I facilities completed 
their vulnerability assessments at the end of 2002, by the end 
of 2003 they would have had to implement all their security 
enhancements.
    Now, they have until March of this year to have those 
verified, but those tier 1 facilities are, again, essentially 
done; tier 2 facilities will be done by June of this year and 
all of our facilities are, again, as I mentioned in my 
testimony, are scheduled to be through by the end of this 
calendar year.
    Mr. Murphy. One of the recommendations I had for security 
here, is it possible within the plants and distributors, large 
or small, that some external source could hack into the 
computer and cause problems with regard to release of chemicals 
or locking security measures, or is it all done internal with 
no connection to the outside?
    Ms. Gibson. I'll let Mr. Durbin speak to this as well, but 
I know that's been--specifically in the past several months now 
that we've kind of addressed the facility perimeter security, 
we've really started to look more at the cyber security aspect 
of it, really evaluating what information those companies have 
on their computers and how can that information be protected, 
because that is just as important as the physical security.
    So we're starting to get into that more and more and 
there's a joint industry group looking at those in 
collaboration with the government.
    Mr. Durbin. And, in fact, I would say what's interesting 
about the cyber security piece of this is that more than the 
physical security side, they almost have a leg up, because many 
of our member companies have already been working very closely 
on cyber-related issues because of simple E business, business-
to-business issues, Y2k issues.
    So there were already groups of our member companies very 
much focused on securing not only their IT systems and 
information, but, again, many of our facilities and our 
processes are controlled by computer, so making sure that they 
cannot be hacked into from outside, outside the facility, to be 
able to cause a release.
    Mr. Murphy. And then one area, too, I want to ask about 
because the plants that we specifically have heard about today, 
a couple of those were investigated by the media, and we know 
there's many more throughout the country they covered; for 
example, in the 60 Minutes story, Baltimore, California, New 
York, other places, too.
    Despite what we heard earlier today on Univar, despite 
efforts taken on those sites, they still cannot block access 
through the rail lines that bisect their plants and I saw 
mention in here that the rail industry and chemical industry 
are working cooperatively.
    What else do we have to do on those sites other than--I 
don't know, what else can be done on those sites, because that 
still seems to be a critical aspect, materials transported by 
rail, by truck; where do we go from there?
    Mr. Durbin. No question; and I think, as Ms. Witmer 
mentioned in her testimony, we did establish a task force 
between AAR, the Rail Trade Association, and ACC to address 
three specific issues. One was communication to our customers, 
and I can discuss that more in a moment, but the two other 
areas were storage in transit and access to the plants.
    Traditionally, you know, the railroads and transportation 
of our chemicals, obviously a very important part of your 
business, intended to have fairly free access to the facility, 
you know, 24 hours a day drop-off materials and what have you.
    A lot more has gone into now determining, kind of putting 
together rules of the road for access to the facility, gates 
over the rail access, and in some cases where there aren't 
gates you've still got electronic surveillance and alarms and 
other things that are now instituted. But, again, this is an 
evolving process and one where we're continuing to find the 
existing vulnerabilities and working very hard, very fast, to 
try to address those vulnerabilities.
    Mr. Murphy. Also, I know that I have little doubt that some 
reporters, all they have to do is walk on those plant sites and 
look at those aspects and, as was already testified to, there 
are reporters sent by the media to see what is actually 
happening there. And I don't want to see these kind of breaches 
take place without a quick response. I really need you to know 
that, and I appreciate that you will continue to work with 
Congress in order to draft these high-standard initiatives to 
make sure we protect these areas for the public.
    Mr. Turner.
    Mr. Turner. Mr. Chairman, when we talked with our first 
panel about the issue of EPA and the Department of Homeland 
Security being the lead agency with respect to having authority 
in this terrorist threat arena, we all voted for the Department 
of Homeland Security.
    I want to give each of you an opportunity to tell us your 
preference: the Department of Homeland Security or EPA and your 
rationale.
    Mr. Stephenson. Well, I don't want to give you my 
preference. I will say that EPA has a great deal of knowledge 
on this subject stemming from its Clean Air Act 
responsibilities and the 1990 amendment which established this 
risk management plan approach, so they have an incredible 
amount of knowledge on those 15,000 facilities with hazardous 
chemicals.
    On the other hand, Department of Homeland Security brings 
to it the threat-based analysis. Both of those things have to 
be considered when you're assessing vulnerabilities at an 
individual facility.
    So I would hope that they're working very closely together. 
I think both of them have a contributing role in this. DHS, 
since it is a security issue, may be more appropriate. But I 
would hope that all this experience that EPA has developed over 
the last decade won't go to waste.
    Mr. Turner. Ms. Witmer.
    Ms. Witmer. The Pennsylvania Chemistry Industry Council 
supports DHS as the oversight agency for security, presumably 
because they have the expertise in developing and assessing 
security plans.
    There is potentially a role for EPA to play, certainly from 
a response perspective. Their mission is to protect the 
environment, not to--they don't have the expertise to assess 
the security plans.
    Mr. Durbin. ACC has also been on record that DHS would be 
the appropriate primary agency to have a lead over the chemical 
sector security, but, again, that is not to say that there 
isn't a need to be able to pull in the expertise of other 
agencies.
    No. 1, I would point out that while we have worked and will 
continue to work very closely with EPA on all of their programs 
what is needed now is an agency that not only has the charter 
mission to protect all the critical infrastructures, but they 
can appropriately look across all of the interdependencies of 
the various critical infrastructures. If you look at any one 
facility you've got, you know, the power grid coming in, water 
grid, transportation grid, and you need to be able to 
coordinate all of those.
    Additionally, if I can add a little bit more context as 
well, you're talking about an industry that already has a long 
history of working with various Federal agencies not just on 
physical hardening of our facilities but on the potential 
misuse of our products, whether they're stolen or have chemical 
weapons conventions, dual-use chemicals, drug precursors, and 
even the fertilizer industry was mentioned earlier that works 
with ATF. And there's a coordination that needs to go on here 
that involves EPA, Department of Commerce, Department of State, 
ATF, the FBI, and I think that the way DHS has been created 
it's only appropriate that they have to play that primary 
coordinating role.
    Ms. Gibson. I would concur with Mr. Durbin's comments about 
I think the most important aspect is to have one clear agency 
coordinating all these security efforts. And given the focus of 
DHS--threat, security analysis assessment, vulnerability 
assessment, site security approval--I think they are the most 
appropriate agency to take on that role.
    Mr. Turner. My next question goes to the association of 
representatives. I already indicated in panel one that I'm a 
fan of the EPA processes that require disclosure of information 
because of how it has assisted the community in empowering them 
to be able to be at the table and have an impact, I think even 
to the benefit of affecting the facilities by giving them 
additional security consulting information, even though at 
times I think it has been an augmentation of the government's 
ability to advise and to plan for potential incidences at these 
facilities.
    For your members, though, what are their thoughts with 
respect to the extent of the public information that is 
available? Are they concerned as it relates to a terrorist 
impact that so much information is currently available about 
them?
    Ms. Witmer. Members of the Pennsylvania Chemical Industry 
Council are urged to work with their communities, including 
their residents in the area in which the facility is located, 
as well as the first responders and government officials to 
reach out and let them know what is happening at the facility.
    As far as an actual security plan, no, we don't think that 
individuals in the neighborhood, so to speak, should, in fact, 
be able to look at those. The emergency management plans are 
available to the local first responders. They have them, they 
know what's there at the facility, so that if there is an 
incident, when they respond they know what they're dealing 
with.
    So there's a balancing act that we think we are 
successfully negotiating. We don't think there needs to be that 
information placed on the Internet for anyone to look at, but 
there does need to be a lot of communication with the community 
in which the facility is located.
    Mr. Durbin. I would concur with Ms. Witmer's comments. 
There is information that has to be shared with the community 
and then there's talking about the security vulnerability 
assessments and the plans we've implemented to address those 
vulnerabilities and making them publicly available.
    Ms. Gibson. Part of NACD's Responsible Distribution 
Practice for companies is to become involved with the local 
agencies and invite them for tours and go through the training 
and emergency response exercises, so we clearly support as much 
communication as possible with the local officials.
    As far as having information on the Internet, that's--
everybody knows the obvious dangers of that--that could easily 
fall into the wrong hands. So, as Ms. Witmer said, it is a 
balancing act.
    Mr. Turner. My next issue relates to as individual plants 
in several communities begin to take efforts to secure their 
facilities, they are learning more than they did before in the 
capture of this information, the sharing of this information, 
so that our collective learning curve can be diminished, and 
then we can adopt best practices as it occurs.
    From the association's perspective, you talk about your 
efforts to capture that expertise and disseminate it among your 
members and also from GAO's perspective the lost opportunities.
    And I'll go to Ms. Gibson.
    Ms. Gibson. I'm sorry, I don't quite understand the 
question.
    Mr. Turner. Your members are undertaking security 
enhancements.
    Ms. Gibson. Yes.
    Mr. Turner. And they may be undertaking very different 
types of security enhancements that they might benefit from 
sharing that information among each other.
    Ms. Gibson. Right.
    Mr. Turner. Can you tell us what among your association 
you're doing to help capture that information and share it 
among the various members so that we can all have a greater 
enhancement of that?
    Ms. Gibson. Kind of within the association it's always--
security is a funny topic, as you know; companies are sometimes 
reluctant to actually publicize the specific measures they're 
taking. But we do have guidelines under the Responsible 
Distribution Process for companies to follow and they have done 
that.
    We're also probably going to start this year outlining some 
best practices along the RDP process to go over at our annual 
meetings so those companies know all the different areas and 
programs to share information and what works.
    Mr. Turner. Obviously the reason why I'm asking the 
question is I don't believe we're doing very well. I know 
you've indicated some effort to do that, but still this is, you 
know, a critical area where we really need to be finding our 
best and brightest and best solutions and sharing them.
    Mr. Gibson. Even among--just among all the different 
chemical trade associations, there is a lot of communication 
among all the different trades; even though distribution may 
differ from manufacturing, we work very closely together on 
these issues through the ISACs and different initiatives.
    Mr. Durbin. Just to follow that, many of the guidelines we 
put together were in conjunction with NACD and others so we try 
to reach out there. As far as--I think you put your finger on a 
very important role and something that we do need to be able to 
capture, the best practice, and make sure that we share this 
appropriately.
    Again, just within our association and among the 
association, issues around process safety or just safety has 
always been an area where we've kept very robust networks of 
sharing, sharing best practices.
    We are now doing the same thing on the security level. We 
have a security network. In fact, just last week in Washington 
we had a 2-day meeting, which we had about 40 security 
directors from facilities around the country, and it is 
structured in such a way just to put the issues on the table 
that they are having issues with, concerns, or, again, best 
practices, what are you guys doing about this. And so in that 
regard we're seeing a very robust communication with our 
members.
    I think we do need to look at how do we capture that and 
make sure we get it out, you know, more broadly. All of the 
guidelines that we've put together, even our Responsible Care 
Security Code, is not something we keep insulated just to 
ourselves; it's public, it's published, available to anyone out 
there who wants to use those guidelines.
    Ms. Witmer. Would you like me to address that or do you 
want to go on? It's really just an agreement statement with, 
you know, the other two responders.
    One thing that we do differently perhaps at PCIC, we have 
an Internet-based ability for folks in the security network to 
talk to each other if they have a particular issue that they're 
dealing with. Rather than having to come in physically to a 
meeting to talk about it, we have set up two-way communication 
on the Internet where they can discuss those sorts of issues as 
well.
    Mr. Turner. Mr. Stephenson.
    Mr. Stephenson. Just quickly, the Information Sharing and 
Coordination Centers [ISACs], that were set up for each of the 
13 infrastructure elements are designed for this purpose, to 
share best practices. These are public/private partnerships 
consisting of the lead trade association and these Federal 
agencies responsible for a given infrastructure.
    So maybe there's a little bit of confusion since DHS is new 
to this responsibility, and coordination that isn't working as 
well as it should. DHS is taking charge of vulnerability 
assessments, but has not fully addressed the information 
sharing aspects of the ISAC function. So I think hopefully the 
Federal Government can encourage better sharing of information 
as well; it's a role we need to fulfill.
    Mr. Murphy. Anything else? Mr. Turner.
    Mr. Turner. I'm finished.
    Mr. Murphy. Mr. Shays.
    Mr. Shays. Thank you. I'd like to have a sense of who 
handled security before there was a terrorist threat. Who had 
the responsibility.
    Mr. Durbin. I'm sorry. Within the government? Within 
industry.
    Mr. Shays. Walk me through it.
    Mr. Durbin. Well, again, security I think before September 
11th was certainly--it was dealt with at the company level, 
certainly from a different paradigm, at least here in the 
United States.
    I can tell you some of our larger corporations that are, 
you know, multinational depending on where they're located, 
certainly have had to deal with the issue of terrorism, whether 
it's in Ireland or different parts of Africa or Indonesia or 
what have you. But I think prior to September 11th, our 
security directors at our companies were dealing more with the 
traditional break-ins, misuse of chemicals, and even just 
employee issues within the facilities.
    Mr. Shays. So the EPA--was EPA the----
    Mr. Durbin. No, there was no specific government role over 
security of chemicals.
    Mr. Shays. So they dealt with safety, they didn't deal in 
any way of maybe having a fence up or something like that? EPA 
wouldn't require that.
    Mr. Durbin. Not that it would have been required. It would 
have been part of the risk management plans that the EPA 
program encouraged and helped develop to get the communication 
going from the facility, the plant community and the local 
responders. I mean, that discussion was then able to say what 
is necessary----
    Mr. Shays. But it happened under the context of the EPA.
    Ms. Witmer. It was more of safety, you know--as you know, a 
lot of these facilities are on rail lines or in a community 
where there are kids walking and so, you know, it was a safety 
issue.
    Mr. Shays. So it was a security issue, but not from the 
standpoint of people intending bad things, but still security 
was handled by EPA in that sense; correct.
    Ms. Witmer. I would disagree that it was security, but that 
it was more of safety.
    Mr. Stephenson. The risk management plan was premised on 
accidental releases, not intentional releases, but, again, they 
did worst-case scenarios on an accidental release and that's 
where the information on putting millions at risk in certain 
situations came from. Chemical facilities themselves came up 
with those worst-case scenarios, it wasn't EPA.
    Mr. Shays. So basically it was silent to security--
basically the EPA and security was--and the consequence of a 
release was whose responsibility? OSHA's.
    Mr. Stephenson. Well, OSHA set safety standards. 
Consequences of a release is part of what the risk management 
plans were supposed to address. Again, that's where the risk 
numbers came from.
    And let me correct something on the earlier panel, it 
wasn't--the chemical companies--and ACC can correct me if I'm 
wrong--did look at things like wind direction, types of 
chemicals used, and proximity to populated areas. This notion 
of a 360-degree pattern isn't exactly right from my 
understanding of what the risk management plans did and what 
the worst-case scenario estimates involved.
    And also the one gentleman was right. The worst-case 
scenario was from a single vat, whatever the largest toxic 
chemical that was stored onsite. So your question about could a 
terrorist act be worse; yes, if for example it targeted two 
vats, it would be worse than one.
    Mr. Shays. I felt that it was such a simple question, that 
it wasn't a trick question. All he had to do was say yes, it 
would obviously be worse if there would be more.
    But the bottom line is the worst-case scenario under the 
EPA makes certain assumptions.
    Mr. Stephenson. Right.
    Mr. Shays. And one of those assumptions was that it was 
going to be, as you said, one vat.
    Mr. Stephenson. Right.
    Mr. Shays. You could have a whole host of them, correct, 
under a terrorist attack.
    Mr. Stephenson. You could. You could. And the difference 
between the 4,000 number that the Department of Homeland 
Security quoted and the 7,000 from the risk management plans 
isn't exactly clear.
    Mr. Shays. Currently what.
    Mr. Stephenson. DHS mentioned 4,000 high-risk facilities 
and if you look at the risk management plans it has about 7,000 
facilities affecting over 1,000 people, so I'm not sure what 
the 3,000 difference is.
    You can get part way from the 15,000 facilities by 
eliminating the ones that affect under 1,000 population. That's 
a good share of the 11,000 number. But then DHS said there were 
4,000 facilities that affect 1,000 or more; the risk management 
plans say there are 7,000 facilities that affect 1,000 or more. 
So I'm not clear what that 3,000 difference is.
    Have I thoroughly confused you?
    Mr. Shays. No. I mean, I was confused by the comments 
earlier. I find that we try to understate the concern to not 
get people anxious, and in the process there's not--I don't 
have a constituent right now who really believes there is a 
terrorist threat. Well, I am overstating. We've minimized it to 
such an extent.
    I mean, I wrote down while you were testifying, I wrote 
down that basically I don't feel people really believe there's 
a threat. And if they did believe there was a threat, they 
think the odds are so low that it will impact them that they're 
not concerned.
    And I don't feel any, you know, what's said in rooms in 
Washington are the chemicals are the greatest vulnerability, 
they represent the potential greatest harm, that they are the 
most tempting target, that their security is not all that great 
yet, and we know that and from those who would intend to do 
harm, you know. But it's kind of like someone who swims in 
shark-infested waters. They get out and say, listen, I did it, 
there's no big problem here. But there were still sharks there 
and you were fortunate you didn't get caught up in it.
    I guess my point to all of you is that I'm just fascinated 
to know when there is an attack on a chemical plant, what the 
industry is going to say. I just don't know what they're going 
to say, because we all know right now we're very vulnerable. 
That's the reality. We are extraordinarily vulnerable.
    Mr. Durbin. If I could, Mr. Shays, that's exactly why an 
organization like the American Chemistry Council said we think 
we've gone out and we're doing the right thing. Our members 
have set very vigorous guidelines for themselves and they're 
meeting their own deadlines. But we know it's not enough. We 
know we don't represent the entire community of concerned 
facilities, facilities that would be of concern, and why we 
think that there does need to be Federal legislation that would 
establish guidelines for everyone. We have been actively trying 
to get legislation enacted and would be happy to work with you.
    Mr. Shays. Let me ask you this: Do you do plume studies for 
these various plants? Do you recommend that they do that? Was 
it being done under EPA?
    Let me back up a second. I still don't know who deals with 
consequence. That's what I don't understand. Before there was 
the concern of terrorism, who dealt with consequence?
    Mr. Durbin. Meaning if an incident were to occur?
    Mr. Shays. Yes, an accident.
    Mr. Durbin. Well, that's something that the risk management 
plans help to coordinate what would be the response at the 
local level. I mean, I think what's clear to say no matter 
where----
    Mr. Shays. I guess I don't have a sense of the 
sophistication of the consequence management. Does it vary from 
State to State, community to community.
    Ms. Witmer. If there's an incident in Pennsylvania, if 
there is an accidental release in a facility or if there's a 
distribution----
    Mr. Shays. This talks to pre-September 11th.
    Ms. Witmer. Right. Exactly.
    If there was an incident involving hazardous material the 
primary State agency would be the Department of Environmental 
Protection because they're responding to the incident from a 
cleanup--a consequence--a cleanup perspective, as well as, you 
know, the local first responders being the first ones on--I 
think that's what you're getting at as the consequence.
    Mr. Shays. That's part of it. Were there pre-September 11th 
automatic procedures that so many homes within a certain area 
have to be evacuated and so on.
    Ms. Witmer. It depends, you know, if it was a 
transportation-related incident or if it was at a facility, as 
well as, you know, what the material was that was involved. And 
that was part of the risk management plan that was developed by 
the facility.
    Mr. Shays. So if it was a certain material there were just 
instantly guidelines that would--and were local communities 
apprised of those.
    Ms. Witmer. Absolutely. A material safety data sheet for 
each of the chemicals is provided to the local communities.
    Mr. Stephenson. That's one of the primary purposes of the 
risk management plan is so that the first responders know 
what's going on in that chemical plant and know what could 
potentially happen if there was an accidental release.
    Mr. Shays. And that was under the auspices of the EPA.
    Mr. Stephenson. Right. It existed for over a decade.
    Mr. Shays. So what happens now if there is a terrorist 
attack? Is EPA in the ball game.
    Ms. Witmer. From--I think we're talking about----
    Mr. Shays. I'm talking consequence now.
    Ms. Witmer. Right. Exactly. So we're talking after the 
incident.
    Mr. Shays. Yes.
    Ms. Witmer. And, of course, the EPA would have a role. And 
I think what each of us said is that EPA does have a role and 
that it's from a consequence perspective but not from before 
the incident, from determining what the vulnerability is and 
from setting guidelines and standards on what is appropriate 
from a security standpoint. EPA, from my perspective with the 
Pennsylvania Chemical Industry Council, would come in from a 
consequence management role.
    Mr. Shays. Wouldn't their role be far more important than 
DHS to deal with the consequences? What does DHS know and why 
would we reinvent the wheel? I mean, who cares.
    I mean, you know, if a building is on fire the fire 
department comes out and puts the dang thing out. And whether 
or not it was, you know, an arson or a natural cause, we deal 
with it the same way. That's kind of what I'm wrestling with 
right now.
    Mr. Stephenson. Well, EPA does have an emergency response 
capability to handle such things as the hazardous spill in the 
Baltimore Tunnel that happened less than a year ago, or anthrax 
in the Capitol Complex, as you know.
    However, I think the ACC witness said it best. There's some 
cross-agency issues here that all need to be coordinated. 
Transportation used to be Department of Transportation, now 
it's Homeland Security. So there's a coordination function.
    Mr. Shays. They moved that section over; correct.
    Mr. Stephenson. Right.
    Mr. Shays. We're not talking about that. They didn't move 
EPA into, you know, DHS.
    Mr. Stephenson. Right.
    Mr. Shays. It's still EPA.
    Ms. Witmer. That's why I think we need an agency to be the 
oversight and coordinating agency because you have that many 
different agencies that have a role, but you need someone to be 
able to be the director.
    Mr. Shays. And who should that be.
    Ms. Witmer. Department of Homeland Security.
    Mr. Shays. Why, if it's consequence.
    Ms. Witmer. But there's more than consequence involved in 
first hopefully preventing and then mitigating an incident.
    Ms. Gibson. So much of this has been done at the local 
level in the past, and that will continue. And you get into a 
terrorist attack, you have all these other issues coming in, 
law enforcement will be there, it's just a different scenario.
    I think DHS, their role is at the prevention of all this to 
try to assess the threats and figure out how to prevent them 
from happening. And then as far as consequences I don't think 
there's a whole lot of change from how it would have been 
anyway.
    Mr. Shays. See, what I suspect is--and we've been along 
this, but what I suspect is that there is a part of the 
chemical industry that doesn't want people to be alarmed by the 
various scenarios because some of the scenarios are quite 
frightening and so it doesn't want to push that.
    What I am fearing is that we aren't leveling with ourselves 
as to what the consequence could be and so--and because we're 
not doing that, we're leaving our constituency very vulnerable. 
That's what I feel.
    Mr. Durbin. But I think you raise that and that's a 
separate issue. I would agree with you there's a lot of 
improvement that has to take place in the way of information 
sharing, even at the level of DHS trying to tell just the 
private sector and the different critical infrastructure 
sectors about what we should be prepared for.
    I mean, this is an evolving role here that we don't have it 
perfect yet, and DHS gets certain intelligence information and 
they're running through their own processes figuring out how 
much they can tell us, how much they can't, protecting sources 
and methods. And then they find themselves getting into a 
situation where they say, well, now we've cleansed so much 
information out of it, if we do provide it to anybody it's not 
of any use.
    So, I mean, there's no question there's real challenges as 
far as providing the right types of information out both to the 
public and to the sectors themselves.
    Mr. Stephenson. You know, there's not a standard model 
here. When you look at the other 13 infrastructure elements DHS 
does not have the lead for all 13 of those. EPA still has the 
water and----
    Mr. Shays. Slow down. They don't have the role for what.
    Mr. Stephenson. DHS does not have the lead role, the lead 
Federal agency role for all 13 infrastructure elements. There's 
not a single model that applies. For example, EPA is still the 
lead for the water infrastructure, Agriculture is still the 
lead for food security and the likes. If you look at all those 
13 infrastructure elements that are set out in the 
administration's Homeland Security Plan, DHS doesn't control 
them all.
    So there are different models that work in different 
infrastructure segments. So, who the lead agency should be is 
maybe not a simple answer, maybe it's one that needs to be 
studied.
    Mr. Shays. And there are 13 infrastructure areas.
    Mr. Stephenson. There are, yeah, 13 stated in the 
President's Homeland Security Strategy.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Stephenson. For example, power companies are a key.
    Mr. Shays. Let me ask you, is there anything that the four 
of you would like to respond to based on any question of the 
first panel, just any information you need to correct or get 
out on the table or you need to just agree with or disagree 
with.
    Mr. Stephenson. The main thing I would reiterate is need 
for Federal legislation requiring vulnerability assessments of 
the chemical sector. There is a Federal requirement for most 
sectors, but at this point such a requirement is curiously 
absent from this sector.
    Mr. Shays. And there is that consensus, then, agreed, which 
is helpful. Thank you.
    Mr. Stephenson. That's our point of view.
    Mr. Murphy. Anybody else who wishes to add any comments for 
the panel?
    Ms. Witmer. Just one thing, and it's sort of a minor point. 
I don't remember which of you had asked whether or not there 
were emergency evacuation plans in place, and, in fact, there 
are as part of the risk management plans that companies have 
had to develop. And those, as you had mentioned, regardless of 
whether it's an accidental release or a terrorism-related 
incident, that emergency management plan would kick in and, you 
know, people would be evacuated.
    Mr. Shays. See, the difference is before--can I go, Mr. 
Chairman?
    Mr. Murphy. [Nods affirmatively.]
    Mr. Shays. We did a review of Y-12 and their evacuation 
plan and this is a nuclear--is it a processing site.
    Mr. Halloran. Manufacturing.
    Mr. Shays. Pardon me.
    Mr. Halloran. Manufacturing.
    Mr. Shays. Manufacturing.
    But what was interesting is when they thought of it only in 
terms of safety--when they thought of it in terms of terrorism, 
those willing to go up in flames with it, it always was you had 
to come in and you had to get out, and so the scenario was such 
that they didn't need as many people because even if someone 
got inside, they still had to get out and so they wouldn't be 
able to take the material and get away.
    Well, you know, now with terrorism they don't have to come 
in and take away, they just have to come in, and they could 
come in under sight; in other words, the assumption has totally 
changed and we realized all these sites were vulnerable around 
the country.
    In other words, someone willing to be a suicide bomber 
becomes a whole different scenario. And so what I wonder about 
these plans is if you have a circumstance now where you are 
basically saying that you could have someone on the inside, you 
could have three vats instead of one, you could have someone 
blow up a road. Then your scenario is totally different, and 
I'm not struck by the fact that we're even coming close to 
dealing with evacuation plans based on that.
    I realize that, you know, we would want to put focus on the 
plants that are most likely to be attacked, I mean, there's 
some in the countryside, there's some--and I realize we're 
going to be getting half of what we need to get done today to 
start paperwork and things like that. I just wonder who's 
dealing with it, and I don't feel anyone is really right now.
    Mr. Murphy. I'd like to thank all the witnesses from both 
panels today for being here. You've helped us a great deal and 
we will attempt to report an understanding of the Federal 
Government's role in this.
    I would think that if there's any fear I have of what comes 
out of these--well, two fears. One is overreaction and one is 
underreaction. Looking around the room I can't put my eyes on 
anything in this room that did not have some level of 
manufacturing impact by the chemical industry, everything that 
is involved in our lives, and we are dependent upon it. This is 
not an attack of the chemical industry, this is what we know 
and are responsible with the chemical industries to be involved 
with changes.
    My fear of other reaction is, and particularly in an 
election year, that there will be so much politicization of 
these issues that some people will say the threat is 
exaggerated.
    I pulled up an article from the Internet regarding risk of 
chemical plants. This was published in 2000, and basically it 
was pooh-poohing the whole idea that there have been terrorist 
attacks on this country and we didn't have to worry about that. 
What a naive concept that was and I think we're still involved 
with that.
    I appreciate your candor and we don't have any further 
questions for this panel, but we have to get answers to these 
issues and continue to protect the American public.
    Mr. Shays. And if I could also thank you for hosting this 
hearing. It was important, I think, for us to be out in the 
field, and I do appreciate our panel very much. Thank you.
    Mr. Murphy. Thank you, Mr. Shays, Mr. Turner, for coming 
out here to visit us.
    Mr. Shays. And, Transcriber, you did it with a smile the 
whole time.
    Mr. Murphy. This hearing is adjourned.
    Note.--The General Accounting Office report entitled, 
``Homeland Security, Voluntary Initiatives Are Under Way at 
Chemical Facilities, but the Extent of Security Preparedness is 
Unknown,'' may be found in subcommittee files.]
    [Whereupon, at 1 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4257.063

[GRAPHIC] [TIFF OMITTED] T4257.064

[GRAPHIC] [TIFF OMITTED] T4257.065

[GRAPHIC] [TIFF OMITTED] T4257.066

[GRAPHIC] [TIFF OMITTED] T4257.067

                                 <all>

</pre></body></html>
